<html>
<title> - BEYOND BIN LADEN'S CAVES AND COURIERS TO A NEW GENERATION OF TERRORISTS: CONFRONTING THE CHALLENGES IN A POST-9/11 WORLD</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]






     BEYOND BIN LADEN'S CAVES AND COURIERS TO A NEW GENERATION OF 
      TERRORISTS: CONFRONTING THE CHALLENGES IN A POST-9/11 WORLD

=======================================================================

                             FIELD HEARING

                               before the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 8, 2015

                               __________

                           Serial No. 114-31

                               __________

       Printed for the use of the Committee on Homeland Security
                                     





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                   

      Available via the World Wide Web: http://www.gpo.gov/fdsys/
                               __________

                         U.S. GOVERNMENT PUBLISHING OFFICE 

99-573 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001




























                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Candice S. Miller, Michigan, Vice    James R. Langevin, Rhode Island
    Chair                            Brian Higgins, New York
Jeff Duncan, South Carolina          Cedric L. Richmond, Louisiana
Tom Marino, Pennsylvania             William R. Keating, Massachusetts
Lou Barletta, Pennsylvania           Donald M. Payne, Jr., New Jersey
Scott Perry, Pennsylvania            Filemon Vela, Texas
Curt Clawson, Florida                Bonnie Watson Coleman, New Jersey
John Katko, New York                 Kathleen M. Rice, New York
Will Hurd, Texas                     Norma J. Torres, California
Earl L. ``Buddy'' Carter, Georgia
Mark Walker, North Carolina
Barry Loudermilk, Georgia
Martha McSally, Arizona
John Ratcliffe, Texas
Daniel M. Donovan, Jr., New York
                   Brendan P. Shields, Staff Director
                    Joan V. O'Hara,  General Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Michael T. McCaul, a Representative in Congress 
  From the State of Texas, and Chairman, Committee on Homeland 
  Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     5
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Prepared Statement.............................................     7
The Honorable Loretta Sanchez, a Representative in Congress From 
  the State of California........................................     6

                               WITNESSES
                                Panel I

Hon. Rudolph Giuliani, Former Mayor, City of New York, New York..     9

                                Panel II

Mr. William J. Bratton, Commissioner, New York Police Department:
  Oral Statement.................................................    39
  Prepared Statement.............................................    42
Mr. Daniel A. Nigro, Commissioner, New York Fire Department:
  Oral Statement.................................................    47
  Prepared Statement.............................................    48
Mr. Lee A. Ielpi, President, September 11th Families Association.    52
Mr. Gregory A. Thomas, National President, National Organization 
  of Black Law Enforcement Executives:
  Oral Statement.................................................    53
  Prepared Statement.............................................    55
 
     BEYOND BIN LADEN'S CAVES AND COURIERS TO A NEW GENERATION OF 
      TERRORISTS: CONFRONTING THE CHALLENGES IN A POST-9/11 WORLD

                              ----------                              


                       Tuesday, September 8, 2015

             U.S. House of Representatives,
                    Committee on Homeland Security,
                                                      New York, NY.
    The committee met, pursuant to call, at 9:00 a.m., in 
Foundation Hall, National September 11 Memorial & Museum, New 
York City, New York, Hon. Michael T. McCaul [Chairman of the 
committee] presiding.
    Present: Representatives McCaul, King, Miller, Clawson, 
Katko, Hurd, Ratcliffe, Donovan, Sanchez, Jackson Lee, Vela, 
and Rice.
    Chairman McCaul. The Committee on Homeland Security will 
come to order.
    Before we begin, I would like to introduce Joe Daniels, the 
president and CEO of the National September 11 Memorial & 
Museum.
    Joe.
    Mr. Daniels. Good morning. Thank you, Chairman McCaul, and 
thank you to all the committee Members for being here this 
morning and choosing to hold this field hearing at this 
location.
    This is the very first time we are hosting such an event at 
the National September 11 Memorial & Museum. I, on behalf of 
the organization, our board of directors, and the hundreds of 
thousands of people who worked to make this place a reality, 
thank you for your support and, perhaps more importantly, your 
steadfast commitment by the members of this committee in 
working to secure the safety of our Nation, which is especially 
profound given our current location at the very foundations 
where the towers once stood.
    I had the honor of giving some of you a tour of the space 
last night, and I think we can all agree that this site holds 
great importance with regard to the topics that will be 
discussed this morning.
    I would also like to thank some of our partner 
organizations who are here in attendance, including Tuesday's 
Children, the 9/11 Tribute Center, along with representatives 
from the September 11 Education Trust and 9/11 Health Watch.
    It is of course fitting and appropriate to acknowledge that 
in just a few days the memorial will host, once again, the 
solemn ceremony marking the anniversary of the attacks, this 
year the 14th anniversary. This anniversary is of course 
significant for all of us, for the entire Nation, but 
particularly for the victims' families as well as the first 
responders, the recovery workers, survivors, and all others 
impacted by the attacks, including those who are still dealing 
with the lingering and devastating health effects so many years 
later.
    On the 10th anniversary, just 4 years ago this week, we 
opened the memorial, and since then we have welcomed over 21 
million visitors from every State in the country and 175 
countries around the world, making this one of the most visited 
historical sites in our country. Just last year, we opened this 
museum with a dedication ceremony here in this Foundation Hall 
and have seen a tremendous outpouring of positive feedback. In 
just over a year, we have welcomed more than 3\1/2\ million 
visitors to the museum.
    In addition to the general public, we have had visitors 
from across the political, cultural, and military spectrum. But 
for every visit from Prince William and the Duchess of 
Cambridge and various heads of state, the most meaningful 
visits have been from the nearly 75,000 active military and 
veterans, including three recent Medal of Honor winners; the 
former U.S. Army Chief of Staff Ray Odierno, along with several 
four-stars from his team; and, last September, we had the 
entire corps of West Point cadets on the 9/11 Memorial.
    Later this month and in this very room where we are sitting 
right now, we will host one of the most important and beloved 
figures in the world. Pope Francis will lead a multi-religious 
meeting for peace, speaking about the idea of what unites us 
being stronger than what divides. A group of religious leaders 
will be with him that represent all of the world's major 
religions.
    This memorial and museum not only serves as a place for 
people from all walks of life to visit and pay their respects 
but also as a place where future generations will learn about 
what happened that day, what led up to that day, and the 
increasingly complex state of world affairs. Let's not forget 
that children now entering high school were born after 9/11/
2001, and, for them, we risk that 9/11 is simply a historical 
fact. It is to this institution where thousands of educators 
bring their students every single year to learn the full 
history of 9/11.
    That is why I would like to thank Chairman McCaul, 
Representatives King and Jackson Lee for already being co-
sponsors of the bill H.R. 3036, the National 9/11 Memorial at 
the World Trade Center Act, which would designate the above-
ground beautiful memorial as a true National memorial. Those 
beautiful pools will ensure that this place is here to preserve 
the memory of those who were killed and will make sure that we 
fulfill our obligation to educate future generations.
    I would very, very much encourage from the bottom of my 
heart that all Members of this committee, this incredibly 
important committee, support H.R. 3036, as this is a momentous 
opportunity to take the lead in preserving the memory of one of 
the most important events in the entire history of the United 
States.
    This memorial has truly become not only the location to 
remember and educate but is the physical embodiment of the 
unity, the coming together, that was so prevalent in the 
aftermath of the attacks.
    Thank you for your time here today and for your continued 
support.
    Chairman McCaul. Well, thank you, Joe. On behalf of the 
committee, let me thank you for your dedication, your service 
to the victims and their families. Let us never forget, and may 
it never happen again.
    I was inspired at our dinner last night to hear from you 
and your efforts. I am proud to be a co-sponsor of the 
legislation that you talked about.
    Again, thank you for being here.
    Mr. Daniels. Thank you, Chairman. Thank you.
    Chairman McCaul. I think it is fitting that this committee 
be the first committee to convene at the 9/11 Museum. This 
committee was formed in response to the tragic events of 9/11. 
This is a historic event, to have the Committee on Homeland 
Security have this hearing in this museum at this time this 
week.
    I would like to thank the 9/11 Memorial and Museum for 
letting us hold the hearing today. I would also like to thank 
Mayor Giuliani and the other witnesses for taking the time to 
join us and for their service to this great city and to our 
country.
    This morning, we are meeting on hallowed ground consecrated 
by the loss of thousands of innocent Americans and by the valor 
and sacrifice of those who worked to save their lives. In the 
wake of 
9/11, we were told to never forget, and we did not. In their 
honor, we vowed, ``Never again.''
    Our memories of the heroism we witnessed gave our Nation 
the resolve needed to embark on a generational struggle against 
Islamist terror. Fourteen years after that fateful day, we are 
still engaged in that struggle. But we have entered a new 
phase. The viral speed of violent extremism has allowed our 
enemies to spread globally and has brought the war back to our 
doorsteps. But we will not bow down to terror.
    So we have come here today to draw on the lessons we 
learned after 9/11, to assess how we can make our country more 
secure, and to honor the memory of those we lost by 
rededicating ourselves to victory in this long war.
    We have made progress since 9/11, which was the largest 
attack in world history. Our first responders are better-
equipped, our intelligence professionals are connecting the 
dots, and our border authorities are keeping terrorists from 
stepping foot on our soil.
    But our enemies have come a long way. Gone are the days of 
bin Laden, when extremists relied on couriers and caves to 
hatch their plots. Today's terrorists are openly recruiting on-
line, across borders and at broadband speed. Radical groups 
like ISIS have enlisted citizens from over 100 countries to 
join their terrorist army in Syria. Islamist terror outposts 
have spread throughout the region and beyond. This includes 
Iran, the world's largest state sponsor of terror, which has 
extended its reach, and the results are alarming.
    Last year was the deadliest year on record for global 
terrorism, and terrorists still have their sights set on the 
West. In fact, in the past 18 months, ISIS alone has inspired 
or directed nearly 60 plots or attacks against Western 
countries, including America. Authorities have also arrested an 
average of almost one American per week on terrorism charges.
    We are in uncharted territory. Even at its height, al-Qaeda 
never reached this kind of operational tempo. Yet, in an age of 
peer-to-peer terrorism and cyber jihad, extremists can inspire 
new recruits on-line, tweet marching orders, and wait for 
fanatics to act. Their followers can also travel easily to join 
them overseas, where they are trained to wage war.
    But, even though our adversaries evolved, the battle-tested 
principles we learned from 9/11 are still relevant.
    First, we must remain vigilant. The 9/11 Commission found a 
Government-wide failure of imagination contributed to the 
surprise attack, so we must prepare for the worst and stay a 
step ahead of the threat.
    We must also take the fight to the enemy before they can 
attack us here at home, and we can do this by eliminating 
terrorist sanctuaries overseas. Condoleezza Rice noted wisely, 
``If we learned anything from September 11, it is that we 
cannot wait while dangers gather.'' In 2004, the 9/11 
Commission made the same point with an ominous prediction when 
they said, ``If, for example, Iraq becomes a failed state,'' 
they wrote, ``it will go to the top of the list of places that 
are breeding grounds for attacks against Americans at home. And 
if we are paying insufficient attention to Afghanistan, its 
countryside can once again offer refuge to al-Qaeda or its 
successor.''
    The lesson is clear: We must not let power vacuums develop 
in new places like Libya or in old safe havens like 
Afghanistan. Terrorists must be kept on the run, or else they 
will build larger armies and have the freedom to plot against 
us in relative safety.
    September 11 also taught us that, in the long term, we must 
counter the ideology at the core of Islamist terror because, 
when left unchecked, it can spread to all corners of the globe 
in the same way communism and fascism led to decades of 
destruction.
    I hope we will have a chance to examine these principles 
today and how to follow them in a new age of terror, but I also 
hope we can explore what the resolve of our 9/11 heroes can 
teach us about prevailing against those who seek to do America 
harm.
    On that day, we saw the face of evil, as terrorists sought 
to attack our economic, military, and political centers of 
power, but we also saw the true heart of America, as ordinary 
men and women showed uncommon courage. First responders and 
pedestrians rushed into burning buildings and stormed cockpits 
to save one another. They were Americans with children, 
families, but they did not hesitate because they knew the 
people inside these buildings and with them on those airplanes 
had families too. Driven by common humanity, they knowingly put 
their lives in the hands of God. Their bravery has rightly 
earned them a certain measure of immortality.
    He did not know it at the time, but when Todd Beamer said 
``let's roll'' to his fellow passengers, he was leading them 
and us to the first victory in the war against Islamist terror. 
The day after, we were still reeling, but our Nation came 
together. We were Americans first. Even though we were 
uncertain about what the future held, we were united in our 
resilience to tragedy and in our resolve to deliver justice.
    The column behind us here today is the final piece of 
debris removed from the World Trade Center site. Those who 
cleared the rubble inscribed it with the names, stories, and 
photos of people who perished, as well as the symbols of 
patriotism. So it is fitting that this last piece of the lower 
tower's wreckage now stands here as a permanent symbol of 
remembrance and resilience.
    We are a country that did not invite aggression from dark 
corners of the globe, but, when it came to our shores, 
confidence and hope, not fear, rose from those ashes.
    I want to thank everyone for being here today on this 
solemn occasion. I want to thank the witnesses.
    [The statement of Chairman McCaul follows:]
                Statement of Chairman Michael T. McCaul
                           September 8, 2015
    This morning we are meeting on hallowed ground, consecrated by the 
loss of thousands of innocent Americans and by the valor and sacrifice 
of those who worked to save their lives. In the wake of 9/11, we were 
told to never forget them. We did not.
    In their honor, we vowed ``never again.'' Our memories of the 
heroism we witnessed gave our Nation the resolve needed to embark on a 
generational struggle against Islamist terror. Fourteen years after 
that fateful day, we are still engaged in that struggle, though we have 
entered a new phase. The viral spread of violent extremism has allowed 
our enemies to spread globally and has brought the war back to our 
doorsteps.
    But we will not bow down to terror. So we have come here today to 
draw on the lessons we learned after 9/11, to assess how we can make 
our country more secure, and to honor the memory of those we lost by 
rededicating ourselves to victory in this long war.
    We have made progress since 9/11, which was the largest terrorist 
attack in world history. Our first responders are better equipped. Our 
intelligence professionals are connecting the dots. Our border 
authorities are keeping terrorists from stepping foot on our soil. But 
our enemies have come a long way, too. Gone are the days of bin Laden, 
when extremists relied on couriers and caves to hatch their plots. 
Today's terrorists are openly recruiting on-line, across borders, and 
at broadband speed.
    Radical groups like ISIS have enlisted citizens from over 100 
countries to join their terrorist army in Syria, and Islamist terror 
outposts have spread throughout the region and beyond. This includes 
Iran, the world's largest state sponsor of terror, which has also 
extended its reach.
    The results are alarming. Last year was the deadliest year on 
record for global terrorism. Terrorists still have their sights set on 
the West. In fact, in the past 18 months ISIS alone has inspired or 
directed nearly 60 plots or attacks against Western countries, 
including America. Authorities have also arrested, on average, almost 
one American a week on terrorism charges.
    We are in unchartered territory. Even at its height, al-Qaeda never 
reached this kind of operational tempo. Yet in an age of peer-to-peer 
terrorism and cyber jihad, extremists can inspire new recruits on-line, 
tweet marching orders, and wait for fanatics to act. Their followers 
can also travel easily to join them overseas, where they are trained to 
wage war. But even though our adversaries evolved, the battle-tested 
principles we learned from 9/11 are still relevant.
    First, we must remain vigilant. The 9/11 Commission found a 
Government-wide failure of imagination contributed to the surprise 
attack, so we must prepare for the worst and stay a step ahead of the 
threat. We must also take the fight to the enemy before they can attack 
us at home, and we can do this by eliminating terrorist sanctuaries 
overseas. Condoleezza Rice noted wisely: ``If we learned anything from 
September 11, it is that we cannot wait while dangers gather.''
    In 2004, the 9/11 Commission made this same point with an ominous 
prediction: ``If, for example, Iraq becomes a failed state,'' they 
wrote, ``it will go to the top of the list of places that are breeding 
grounds for attacks against Americans at home. And, if we are paying 
insufficient attention to Afghanistan . . . its countryside could once 
again offer refuge to al-Qaeda, or its successor.''
    The lesson is clear: We must not let power vacuums develop in new 
places like Libya or in old safe havens like Afghanistan. Terrorists 
must be kept on the run or else they will build larger armies and have 
the freedom to plot against us in relative safety.
    September 11 also taught us that in the long term we must counter 
the ideology at the core of Islamist terror, because when left 
unchecked, it can spread to all corners of the globe in the same way 
communism and fascism led to decades of destruction.
    I hope we will have a chance to examine these principles today and 
how to follow them in a new age of terror. But I also hope we will 
explore what the resolve of our 9/11 heroes can teach us about 
prevailing against those who seek to do America harm.
    On that day we saw the face of evil, as terrorists sought to attack 
our economic, military, and political centers of power. But we also saw 
the true heart of America, as ordinary men and women showed uncommon 
courage.
    First responders and pedestrians rushed into burning buildings and 
stormed cockpits to save one another. These were Americans with 
children--with families. But they did not hesitate because they knew 
the people inside those buildings and with them on those airplanes had 
families, too.
    Driven by common humanity, they knowingly put their lives in the 
hands of God. Their bravery has rightly earned them a certain measure 
of immortality. He did not know it at the time, but when Todd Beamer 
said ``let's roll'' to his fellow passengers, he was leading them--and 
us--to the first victory in the war against Islamist terror.
    The day after, we were still reeling. But our Nation came together. 
We were Americans, and even though we were uncertain about what the 
future held, we were united in our resilience to tragedy and in our 
resolve to deliver justice.
    The column behind us today is the final piece of debris removed 
from the World Trade Center site. Those who cleared the rubble 
inscribed it with names, stories, and photos of people who perished--as 
well as symbols of patriotism. It is fitting that this last piece of 
the tower's wreckage now stands here as a permanent symbol of 
remembrance and resilience.
    We are a country that did not invite aggression from dark corners 
of the globe, but when it came to our shores, confidence and hope--not 
fear--rose from the ashes. Thank you.

    Chairman McCaul. The Chair now recognizes the Ranking 
Member.
    Ms. Sanchez. Thank you, Mr. Chairman.
    I want to thank New Yorkers, in particular, for allowing us 
to hold this hearing here.
    Every time I come to this place, I am always overwhelmed, 
mostly because I had the opportunity to spend a lot of time in 
my earlier career here in the Twin Tower buildings. In fact, my 
former husband's office was here, and, because I was in the 
financial industry, we had plenty of friends at Cantor 
Fitzgerald. So, every time I come here, I remember all those 
innocent people who were taken on that day.
    I want to thank our panelists for being here today.
    I want to say that I am very proud of New Yorkers and 
Americans, because seeing this here today reminds me of just 
how resilient we are, how resilient--everything I know in the 
time that I have spent in this city--New Yorkers are. It is 
really a testament to our ability to never forget but to 
understand that the future is what we look forward to as 
Americans.
    So, since 9/11, we have changed our policing and we changed 
the way that we engage our communities in order to prevent 
terrorist attacks. This committee has been on the forefront of 
trying to understand that and to help locals, in particular, 
because we know that you are the first responders.
    I believe that law enforcement has become a great community 
facilitator, engaging in all facets of the city that they 
patrol. I see that they do it at a time, Mr. Chairman, when we 
are cutting back on the Federal funds that we send to the local 
jurisdictions. In fact, it has been a little alarming to me 
that the Congress has cut back on the funds.
    For example, in 2011, Congress reduced the funding to only 
$1.9 billion to our local agencies. As a result of that, 32 
cities were eliminated from the UASI program, for example. The 
following year, we appropriated only $1.35 billion to these 
important programs. Then we increased it a little bit; then we 
brought it back down again. Because of sequestration, we are 
looking again at cuts to our local law enforcement agencies for 
all the work that they have taken on ever, in particular, since 
9/11.
    I am also interested--I would like to hear from the locals 
about how that budget uncertainty, the amount of money that we 
put forward, does with respect to their programs and what you 
are really trying to do to ensure that a 9/11 or a Boston 
bombing doesn't happen.
    Beyond dealing with that, I would like to hear about what 
you are doing with your local communities, including--for 
example, I represent the second-largest Arab-American community 
in our Nation, back in Orange County, California. I think that 
it is critical that we don't profile, that we don't unduly 
harass, and that we don't detain individuals simply because of 
how they look or what their religion is.
    So I would like to hear from you, in particular, 
Commissioner Bratton, on how the New York Police Department 
engages communities such as Muslim Americans, especially after 
it was revealed that plain-clothes detectives went into Muslim 
neighborhoods to spy on that specific community, at least 
according to your New York Times. I understand that the NYPD 
dropped that program, but I would like to hear about how you 
are rebuilding that relationship and that trust with a 
community that we need to have on our side to help us with 
respect to local terrorism plots.
    I look forward to hearing from both panels. I want to 
thank, again, the Chairman for holding the hearing.
    I think that we have come a long way since 9/11 and that we 
still have a ways to go, but, again, I am always amazed at the 
resiliency of our people and at the resiliency of New Yorkers. 
I look forward to the testimony.
    Thank you, and I yield back.
    Chairman McCaul. I thank the Ranking Member.
    Other Members are reminded opening statements may be 
submitted for the record.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                           September 8, 2015
    I thank the Chairman for holding today's hearing.
    Director Greenwald, thank you for hosting today's hearing at the 
National September 11 Memorial & Museum. The Museum serves a living 
tribute to those who lost their lives in the terrorist attacks and 
provides a daily education to future generations.
    We are fortunate to have an exceptionally accomplished panel before 
the committee today.
    Mayor Giuliani, I want thank you for joining us today and 
reflecting on your leadership during one of New York City's most 
difficult times.
    Commissioner Nigro, you became chief of the Fire Department in the 
days following the 9/11 attacks. At that time, you led an organization 
that lost over 300 of its firefighters in the terrorist attack. I thank 
you for your service and look forward to hearing your testimony.
    Commissioner Bratton, I also thank you for your service. Police 
officers are the boots on the ground that we need to prevent terrorist 
attacks. As the nature of the terrorist attack has evolved since 9/11, 
I look forward to hearing your perspective on this evolution.
    Mr. Ielpi, we will never forget the over 3,000 people who lost 
their lives on September 11. Thank you for appearing today.
    Mr. Thomas, during the September 11 attacks you were executive 
director of school safety for New York City Schools. As the person in 
charge of evacuation and coordination on that day, I want to hear the 
lessons learned and your insight on how coordination has improved since 
9/11.
    In the 14 years since September 11, America, particularly New York 
City, has shown its resilience and its resolve.
    As we continue to honor those who perished aboard the hijacked 
planes on September 11 and those who sacrificed their lives trying to 
save others, we must not allow ourselves to be distracted by fear or 
guided by anger.
    Rather, we must remain steadfast and determined in our efforts to 
thwart future attacks and ensure that our first responders have the 
training and support to do their jobs better and safer.
    To do that, we cannot allow certain religious groups to be 
unjustifiably targeted by law enforcement and we cannot surrender the 
very civil liberties that make this country great. Instead, we must 
work hard to identify potential bad actors within the legal constructs 
of the Constitution.
    Since 9/11, State and local law enforcement have been looked to as 
the first preventers in preventing terrorism.
    The 9/11 Commissioners recommended that we stop stovepiping 
information and increase information sharing among Federal, State, and 
local authorities.
    While increased information sharing is still necessary and gaps 
still exist, it has been proven that information sharing and 
coordination between the Federal, State, and local authorities have 
been helpful in preventing terrorist attacks.
    In the 14 years since September 11, there have been at least 16 
foiled terrorist plots targeted at New York City.
    Some of these plots have been foiled by the cooperation between the 
Federal Bureau of Investigation, Joint Terrorism Task Force, and the 
New York City Police Department.
    Increased police presence and sophisticated counterterrorism unit--
which are funded in part by Federal dollars--have also been helpful in 
foiling terrorist plots in New York City.
    Even though we recognize the importance of Federal funding to New 
York City and other jurisdictions, it is unfortunate that Congress 
continues to play chicken with the Federal appropriations process, 
which delays much-needed resources to State and local governments and 
first responders to build robust preparedness and response 
capabilities. This is unnecessary and should stop.
    Instead, we should return to normal order so that States and first 
responder organizations can reliably plan for future training, 
exercises, and equipment investments.
    We cannot become complacent in our support of first responders.
    First responders have made significant progress in addressing 
challenges identified by the 9/11 Commission; maintaining and building 
upon that progress takes continued Federal support.
    We cannot be complacent in fully implementing the recommendations 
of the 9/11 Commission.
    To this day, Congress has still failed to consolidate jurisdiction 
of the Federal homeland security mission under one committee.
    I hope that the Chairman will renew his effort to address this very 
important issue when we return to Washington this week.
    I want to close by acknowledging and honoring those who died as a 
result of the September 11 attacks, or who are sick today because of 
their heroic actions 14 years ago.
    Words cannot fully convey our sorrow for your loss or our gratitude 
for the sacrifices and bravery of so many first responders, but through 
action, we will try.
    The James Zadroga 9/11 Health and Compensation Reauthorization Act 
would extend the authorization of programs critical to ensuring that 
first responders with 9/11-related illnesses get the care that they 
need and deserve and have access to compensation for associated 
economic losses.
    We will work to ensure that this bill is enacted into law.
    I yield back.

    Chairman McCaul. We are pleased to have two distinguished 
panels of witnesses before us here today. The first: The former 
mayor of New York, Mayor Rudy Giuliani, will testify on the 
first panel. The second will consist of Mr. William Bratton, 
commissioner of the New York Police Department; and Mr. Daniel 
Nigro, the commissioner of the fire department for the city of 
New York; and Mr. Lee Ielpi, the president of the September 
11th Families Association; and, finally, Mr. Gregory Thomas, 
president of the National Organization of Black Law Enforcement 
Executives and senior executive for law enforcement operations 
in the office of the Kings County District Attorney.
    Let me first introduce the mayor.
    If you would have a seat at the table.
    Mayor Rudy Giuliani serves as a partner at Bracewell & 
Giuliani and is chairman and chief executive officer of 
Giuliani Partners. Previously, Mayor Giuliani served two terms 
as New York City's mayor, from 1994 to 2001, and led the city 
during and in the aftermath of the 9/11 attacks.
    I can't think of a more important witness to be here today 
than you, sir. We thank you for your service both before but 
particularly after 9/11, where you brought--it was such a 
tragedy--brought this country together, sir. It is with great 
honor that we have you.
    I now yield to you for your testimony.

 STATEMENT OF HON. RUDOLPH GIULIANI, FORMER MAYOR, CITY OF NEW 
                         YORK, NEW YORK

    Mr. Giuliani. Mr. Chairman, it is a great honor for me to 
be here.
    I thank the committee for holding the hearing here. As you 
said, there could be no more appropriate place. This is not 
just a museum; this is sacred ground. There are people buried 
here who were never recovered. So this is a very, very special 
place, not just to me but, I think, to everyone.
    When I look at the wall behind you, I think of the days and 
weeks in which we worried that that wall wouldn't hold and this 
whole place would be flooded. We expended a great deal of time, 
energy, and money in trying to prevent that. Then, probably 
most of all, I think of all the caskets and people that were 
carried out here with American flags draped on them in great 
solemn procession.
    I think of Father Judge, who was the first body that we 
found here on September 11, who was brought to St. Peter's 
Church, and remember his last words to me about 8 minutes 
before he died, which was, ``God bless us.'' So maybe we should 
begin that way, with God blessing us.
    This museum is many, many things. You will hear how one of 
the most important missions of this museum is so that people 
never forget. That is truly the case; they should not. Because 
we do have a tendency to repeat the mistakes of history. We 
have done that in the 20th Century several times, in de-arming 
after each war and then facing another war that we weren't 
prepared for. Hopefully, we won't make those mistakes again, 
and the reminder of what happened here will remind us of the 
fact that we face a very implacable and difficult foe.
    The first point I would like to make is a point that I made 
very shortly after September 11, and that is that the Islamic 
terrorist war against us did not begin on September 11, 2001. I 
remind you, this very place was attacked in 1993, again by 
Islamic terrorists, who were taught their terrorism in a mosque 
in Union City, New Jersey, by an imam who is spending 100 years 
in jail now, sentenced by Judge Michael Mukasey, who eventually 
became Attorney General.
    That wasn't the only mosque in New Jersey that was planning 
attacks on New York. It is unfortunately the case that there is 
an interpretation of the Islamic religion that calls for the 
destruction of our way of life. It is certainly not the 
majority view. It certainly doesn't reflect the views of most 
people of the Islamic religion.
    On the evening of September 11, with the dust of September 
11 on my jacket and in my eyes and on my face, I said to the 
people of New York that we should not view this as an attack by 
a particular group and assign group blame, that is the worst 
thing we could do, and that we should not attack anyone.
    I sent, to the point made by Congresswoman Sanchez, I sent 
my police commissioner, Bernard Kerik, on the mission of 
tracking the number of attacks on members of the Arab community 
in New York. After 8 days, I stopped doing it because there 
were none. We expected it. We expected it because of the anger 
and the hatred. So, to the many things that New Yorker deserve 
credit, one of the things they deserve credit for is they don't 
engage in group blame.
    But New Yorkers also aren't foolish, and we do realize 
that, although it isn't a matter of group blame, the word 
``profiling'' has many meanings. If we are profiling based on 
objective evidence, that is exactly the way we investigate.
    I was in law enforcement, as you were, for more of my life 
than anything else, and I caught criminals by profiling. When 
the victim told me the person was 64", had blond hair and blue 
eyes, I didn't go look for a 54" person with brown eyes and 
brown hair. If I did, I would have been a fool. I looked for a 
person that met the description of the people who committed the 
crime or might commit the crime.
    The reality is that, whatever euphemisms we want to engage 
in, they are at war with us. By ``they,'' I mean Islamic 
extremist terrorists. They kill in the name of Allah. They kill 
in the name of Mohammed. They interpret the Quran and the 
Hadith, which is the explication of the Quran--which, I might 
tell you, I have read several times--they interpret it and use 
those portions of the words of Mohammed that call for death to 
infidels. Unfortunately, they use mosques as breeding grounds 
for that--not all, but some.
    Congresswoman Sanchez, I am the mayor who authorized the 
placement of New York City police officers in mosques in New 
Jersey and elsewhere, and Mayor Bloomberg continued it. I 
believe, by doing so, I saved the lives of many New Yorkers, 
because we uncovered plots that have never come to light. It is 
unfortunately the case that that has to be done. I believe it 
was a mistake to withdraw those patrols.
    So, as we sit in a museum and when we go to museums, we 
think of history, don't we? If we were to go to Pearl Harbor 
and went to the museum in Pearl Harbor, we would think of 
history, the terrible attack on Pearl Harbor and the fact that 
that is now confined to history. Our enemies in those days are 
now our friends; they are some of our best friends--Germany, 
Italy, Japan. That war is over. We can go to Civil War 
memorials, and we can go to Revolutionary War memorials, some 
of which are in my great city, and that war is over. You are in 
a museum about a war that is still going on. Don't fool 
yourself into thinking that it is over.
    Is it worse now or better now is a very debatable and maybe 
almost irrelevant issue, because it is very bad now. In certain 
areas, we have improved dramatically--airport security, airline 
security. Cooperation is considerably better between the 
Federal Government and local governments. All of that is true. 
But the threat remains, and the number of attacks in recent 
years have increased, and the number of threats have increased. 
The enemy has become considerably more diverse and, in that 
way, more difficult to track than when we were facing one major 
enemy, bin Laden.
    But we made a mistake then, and I see us making the same 
mistake again if we are not careful. We made a mistake in not 
taking seriously what they were saying to us.
    When they attacked us here in 1993 and killed our people 
under the orders of an imam from New Jersey, they had declared 
war on us. We treated it as a criminal act. It wasn't a 
criminal act like the 5,000 or 6,000 I prosecuted as United 
States attorney. It wasn't like the criminal acts of the mafia 
and Michael Milken and Ivan Boesky and corrupt politicians. It 
was an act of war.
    Then, of course, they attacked us in East Africa or in 
Africa twice. Then they attacked our USS Cole and killed our 
servicemembers--by the way, an act of war, usually considered 
an act of war.
    We largely ignored those attacks. Our response was tepid. 
Our response to the USS Cole was nonexistent. We allowed 
American servicemen to be slaughtered by bin Laden, and our 
reaction was nothing.
    Just in case we weren't paying attention, bin Laden 
declared war on us. We weren't paying attention. Did that lead 
to September 11? Did that lead to a sense of arrogance, and did 
it lead to a sense of an America that was weak, an America that 
was unresponsive, an America that could be taken advantage of? 
No one will ever know. But it is safe to assume it did because 
it will protect us better in the future.
    Then we had September 11. I lost numerous close personal 
friends, as did many of the people who are sitting here. It is 
extraordinarily difficult for me to return here. I have been to 
this museum only three times, and, the last time, I came with a 
group of Rangers who were going off on a mission, and their 
general wanted them to see where the war started that they are 
now having to continue.
    But it didn't start here. It started way before here. The 
attack on the Munich Olympics was in 1972, on the Israeli team. 
The killing of Leon Klinghoffer was in the 1980s. We weren't 
listening, we weren't watching, we weren't paying attention, 
and we were taking peace dividends while people were declaring 
war on us.
    I could trace the history of the aftermath of World War I 
and World War II and show you the same thing. Only fools repeat 
the mistakes of history. We are getting all the warnings again.
    Yes, we have ISIS. ISIS has many causes, part of it the 
withdrawal of our troops from Iraq; part of it our 
unwillingness to engage in Syria; part of it the President 
drawing 12 red lines, saying that if Assad used chemical 
weapons he would act, and the President's red lines 
disappeared, which made America a hollow vessel, a Nation, one 
could assume, you could take advantage of. You don't draw red 
lines and then erase them and expect that implacable foes are 
not going to take advantage of that.
    So we have ISIS doing things that take you back to the 6th 
Century and the 7th Century, to the acts of Ali and some of the 
followers of Mohammed--beheading of people, mass graves. Our 
response to ISIS so far has been, at best, to play defense; at 
worst, to be rather ineffective.
    One of the great things that President Bush did for us, for 
which I said at the time will give him a place in history that 
can't be denied, is, after this attack took place, he 
immediately put this country on offense. By putting us on 
offense, he saved our city from repeated attacks.
    There is no one, absolutely no one, who on the day of 
September 11, FBI or anyone else that briefed me, that didn't 
warn me that my city was going to be attacked numerous times in 
the future. Beginning with Commissioner Kerik, continuing 
through Commissioner Kelly and now Bratton, New York City has 
continuously grown its response to terrorism because we expect 
to be attacked again.
    But we weren't attacked. We weren't, in large measure, 
because of the bravery of the men and women of our military, 
who went and engaged the enemy in Iraq and Afghanistan and kept 
them so busy that they couldn't plan attacks.
    That presence of our military also brought us incalculable 
amounts of evidence and intelligence warning us about attacks. 
Consider how that is diminished when those troops aren't there. 
If you have 100,000 troops in a country, they are in villages, 
they are in towns, they talk to people, they gather 
intelligence. That intelligence gets to the CIA, it gets to the 
FBI, from the Joint Terrorism Task Force, it gets right down 
here to the streets of the city.
    That is now gone. We do not have the benefit of that 
intelligence. It could be part of the reason we thought ISIS, 
or ISIL, was the JV, because we weren't getting the 
intelligence we were getting in the past. It is part of the 
reason we miscalculated them and let them catch up real fast. 
Now we are playing catch-up, not offense.
    But ISIS is not the biggest threat to us. A determined, 
strong strategy of engaging our Special Forces could do a good 
job of eliminating ISIS. Our major threat--and let's not take 
our eye off it as we watch ISIS--is Iran.
    The Iranian empire that began with the overthrow of the 
Shah and the first Ayatollah and now the second has killed well 
over a million people. We are talking about mass murderers. The 
Ayatollah and Prime Minister Rouhani have engaged in mass 
murder. It is Prime Minister Rouhani who was the one who 
ordered the execution of the Jewish people in Argentina.
    There are more people being killed in Iran today than under 
Ahmadinejad, for a very important reason: The Ayatollah and 
Rouhani do not want the people inside of Iran to drink the 
Koolaid of thinking that there is a reform going on in Iran. 
They are trying to get us to drink that Kool-aid. But they are 
killing people to remind their people, ``We control Iran.''
    So let's not take our eye off Iran. Let's remember that we 
are negotiating with an Ayatollah who has pronounced the 
destruction of the state of Israel, the death of Americans, and 
has on his hands the blood of very, very many young Americans 
who were killed by the Quds Forces during the war in Iraq. We 
are negotiating with him.
    At the same time we are negotiating with him and he is 
calling for our death and destruction, we are not calling for 
regime change in Iran. If they can have a two-part strategy in 
negotiating, why are we so unsophisticated that we can't have a 
two-part strategy? If the Ayatollah can negotiate with us and 
call for our death and destruction, then why can't we negotiate 
with him and call for regime change in Iran?
    If Egypt needed regime change and we supported it and 
overthrew Mubarak, a friend of the United States and a friend 
of Israel; if we supported regime change in Iran and removed 
Qadhafi, who had been neutered--Qadhafi, a terrible man. I 
investigated Qadhafi, as United States attorney, for some of 
his acts, as I did Yasser Arafat, by the way, who was 
responsible for the murder of Leon Klinghoffer. If we could 
remove Qadhafi, who was useless as a threat, terrible to his 
own people but useless as a threat, if we could remove these 
people, why are we not for a regime change in Iran?
    Iran has taken American hostages. Iran has killed thousands 
of Americans. Iran supports Hezbollah, Hamas, the Houthis in 
Yemen. Iran controls Iraq. We gave Iraq to Iran when we 
withdrew. Iran controls Syria through Assad.
    Do you see what is developing? A Persian empire, a Shiite 
empire. To the south: Saudi Arabia, Jordan, the Emirates, 
Israel, Egypt. We have a very dangerous situation developing in 
the Middle East, where we have a divided Middle East. America 
is sitting back and not taking action to prevent it. Instead, 
it is negotiating an agreement that recognizes something that 
we have been fighting for decades, which is a nuclear Iran, 
which will make it even a bigger empire.
    So I will conclude by saying that if this museum exists to 
remind us that we shouldn't forget and we shouldn't repeat the 
mistakes of history, let's let it do that. Let's realize that 
we are at war. If we don't want to call it that, they call it 
that. We have to respond in a way in which we are strong, 
assertive, intelligent.
    This city has done everything it can to protect itself. The 
work of Commissioner Kelly, continued with the work of 
Commissioner Bratton, has been excellent.
    It is absolutely necessary, as you pointed out during your 
opening statement, that we are now dealing with many diverse 
and smaller attacks, and it requires the FBI and the Federal 
authorities to think of our police as their eyes and ears. 
There are approximately 12,000 or 13,000 FBI agents; there are 
35,000 New York City police officers. The New York Police 
Department is a much bigger law enforcement agency than the 
FBI. That is only one police department.
    I could tell you attacks, when I was mayor before September 
11, that were thwarted by intelligent New York City police 
officers who were trained to look for what Commissioner 
Bratton, I believe, originally termed as the ``precursors of 
terrorism.'' We are going to need more of that, and this 
committee needs to encourage it.
    It is hard to get agencies to work together; we all know 
that. But the work of this committee under you, Mr. Chairman, 
and under Mr. King has really been excellent in helping to 
bring those law enforcement agencies together. I urge that you 
continue to do that, because, although the threat may not be as 
large as it was with al-Qaeda, it is more diverse and harder to 
find, and the threat of Iran is greater than both.
    Thank you.
    Chairman McCaul. Thank you, Mayor, for those profound 
remarks. You are clearly the expert on this in the room.
    I also want to commend the NYPD and the FBI and Homeland 
officials, who have worked well together--it didn't always used 
to be that way, as you know--to stop these threats. I have 
never seen these organizations working as well as they do 
today, which is evidenced by the amount of threats that we have 
stopped and the number of arrests that we have made, over 60 in 
the past year, to stop that. But they only have to be right 
once. People ask me what keeps me up at night. It is those 
cases that we don't know about.
    You talked about 1979. It transformed the Middle East. We 
are still reeling from that today. We had flags, warning signs 
along the way. Ramzi Yousef, 1993 World Trade Center bomber, 
original targets: 12 Jewish synagogues, 12 tribes of Israel. 
Bojinka plot: 12 airliners, plotting with Khalid Sheik 
Mohammed, the mastermind of 9/11 that eventually came back to 
this target and unfortunately brought the Twin Towers down.
    The job of this committee is to ensure that never happens 
again, but we have to see the warning signs along the way. 
There are many today.
    I look at the uniform of the Navy Seal Team 6, the man who 
killed bin Laden, the Seal Team 6 who brought him down. But the 
threat didn't die that day with bin Laden. I think many have 
tried to downgrade that it is over, the war on terror is over.
    I agree with you, sir. I was a Federal prosecutor like 
yourself. These are not criminal cases. This is a war that has 
to be clearly defined who the enemy is, and that is radical 
Islamists, extremists. Only through that can you defeat that 
enemy.
    That was a great day, when bin Laden was killed, but it 
didn't end the threat. Now the threat is evolving. The threat 
is different. The challenge is different.
    I believe this policy of containment against ISIS is not 
going to win the day, that as long as they can fester over 
there--after the Arab Spring, we have seen power vacuums fall, 
we have seen it filled by terrorists in Northern Africa and all 
throughout the Middle East. As that threat grows overseas over 
there, so, too, does the threat to the homeland, because they 
have greater territory to launch external operations, including 
operations over the internet that we have seen more recently.
    So I guess my question to you, sir, is: There are many 
facets to this--militarily, politically, from an idealogical 
struggle. What more needs to be done to defeat this enemy?
    Mr. Giuliani. Well, I think I outlined some of it, which is 
I think there should be considerably more engagement in the 
parts of the world where people are plotting to kill us. It has 
always seemed to me it made sense to have American military in 
the places that were of most danger to us, which is the reason 
we kept our military in Germany for so long and in South Korea 
for so long.
    I think the withdrawal of our troops from Iraq and 
Afghanistan on a time table will prove, historically, to be a 
horrible mistake. I believe it was the genesis of ISIS and our 
inability to properly assess ISIS.
    I think the failure to have American troops in areas of 
great concern to us, meaning where people are plotting to kill 
us, deprives us of intelligence. Because it is the military 
that can gain a lot of that intelligence for us because of 
their interaction with people, informants and others that they 
come in contact with.
    So I think there has to be an acknowledgment on the part of 
the administration that, whether we want to call it a war or 
not, it is a war, and the military should be engaged.
    I also believe there should be more support for local 
policing, because this has come down to now trying to find the 
so-called lone wolf. Well, there have been so many lone wolves 
that it is a pack of wolves, not just a lone wolf. They are 
hard to find. They require training police officers in looking 
for, as I said before, the precursors of terrorism. It is a 
different kind of training; it is very specialized. It could 
use considerably more Federal support and help at the local 
level.
    We can no longer rely just on the FBI, the CIA, the NSA, 
and even the military, because not all threats are coming from 
abroad. Some are. Some of the threats are coming from someone's 
home, and we need police officers who can observe suspicious 
activities.
    We should not allow political correctness to override 
sensible law enforcement decisions about what needs to be done 
to protect lives. We shouldn't lose a single American life to 
political correctness.
    Chairman McCaul. I think the foreign intelligence gained by 
the FBI and the intelligence community, combined with the 
street intelligence from our State and local police, working 
together, is the best way to protect the homeland from these 
threats.
    My final question for you, sir, is: From your testimony, 
you appear to be opposed to the Iran negotiation, the Iran 
deal. Why do you oppose that agreement?
    Mr. Giuliani. I oppose that because I do not believe it 
makes sense to reach an agreement on the controlling of nuclear 
weapons with a mass murderer. I think history has proven that 
negotiations with mass murderers only lead to substantially 
more problems later.
    I am extremely upset about the fact that the goals of that 
negotiation have changed. You might remember, the goal of the 
negotiation, including the U.N. sanctions originally, was for 
Iran to be non-nuclear. It now becomes, how nuclear should Iran 
be?
    They should not have their hands on nuclear weapons. Iran 
does not need the peaceful use of nuclear power. It is not an 
energy-starved country. It is absurd to think that Iran needs 
the peaceful use of nuclear power. If we accept that, I would 
imagine the Ayatollah and his wise men are laughing at us, that 
we accept the idea that they need the peaceful use of nuclear 
power.
    They are developing nuclear power for one reason and one 
reason alone: Because they want to create an empire, which we 
are letting them do. They control Iraq; we do not. They control 
Syria; we do not. They are basically at war with Saudi Arabia 
and Yemen through the Houthis. This is an enormously aggressive 
foe.
    I learned a lesson from the Cold War. I had the great honor 
of working for President Ronald Reagan. President Reagan always 
had a nightmare, and that is why he ended the Cold War. But he 
ended the Cold War by pointing missiles at the Soviet Union and 
by telling them he would be willing to use those missiles. He 
ended the Cold War by developing, or beginning to develop, a 
nuclear shield that was laughed at and ridiculed. It is the 
nuclear shield that worked in Israel.
    The reality is that we have to realize that we are putting 
the nuclear button in the hands of madmen. If the Ayatollah and 
the regime in Iran is not insane, it does a great pretense of 
being insane. To deny the Holocaust, to call for the 
destruction of one of our strongest allies, the state of 
Israel, to call for the death of Americans, to be responsible 
for American hostages for 444 days, and for killing thousands 
of Americans, I would have to say this is an insane regime.
    Ronald Reagan's nightmare was mutually assured destruction 
was an immoral way to keep the peace, because if a madman got 
in control of the button in either place, the Soviet Union or 
the United States, the world could come to an end. Nuclear 
arms, nuclear capacity should not be put in the hands of 
madmen.
    Chairman McCaul. Thank you, sir.
    The Chair now recognizes the Ranking Member.
    Ms. Sanchez. Thank you, Mr. Chairman.
    Again, thank you, Mayor, for being before us. As usual, 
there are some things I agree with you on and there are some 
things where we differ.
    Mr. Giuliani. Sure.
    Ms. Sanchez. Certainly, you and I have been on the same 
side with respect to Iran and its really terrible acts of 
violence that it does in inciting in particular in the Middle 
East and to its own people. So, on that, we definitely agree 
they are a terrible player.
    But, you know, I have been 19 years in the Congress, 19 
years on the military committee, No. 2 for the Democrats on the 
military committee now, 17 of those 19 years being on the 
subcommittee that does nuclear warfare, et cetera, doing 
Special Forces, I was the Chairwoman for Special Forces 
Subcommittee, et cetera.
    I know that your expertise is not in the military. I really 
want to get to the area where I do believe you have extreme 
expertise in, and I want to elicit from you some information 
that we can use.
    Mr. Giuliani. Sure.
    Ms. Sanchez. So I won't argue with you about what is going 
on with the military. I definitely have a different viewpoint. 
But I want to talk to you about the funding that the Federal 
Government--and the system in which we try to buttress what our 
local law enforcement are doing.
    I mentioned in my opening statement that I am very 
concerned when I see Byrne or UASI or COPS grants or however it 
is that we are packaging from the Federal Government into our 
local law enforcement the funds and the fact that they are 
significantly decreasing over time, and, more importantly, the 
lack of predictability as to how those funds will flow, when 
they will flow, and for what they will flow.
    Can you talk a little bit about, having overseen this city 
and, in particular, during the times of preparedness for your 
first responders, what that does to you and what you would see 
as more useful, from a funding perspective, from the Federal 
Government?
    Mr. Giuliani. Well, when I was the Mayor, I supported the 
crime bill. The crime bill was a great bargain between 
conservatives and liberals. It included social programs that a 
lot of conservatives disagreed with, and it included the death 
penalty and funding, tremendous funding, for local police that 
some liberals disagreed with.
    Somehow, under President Clinton's leadership, he put 
together a group, bipartisan group, of mayors that included me 
and Ed Rendell, the Democratic mayor of Philadelphia, the 
Republican mayor of Los Angeles, and the Democratic mayor of 
St. Paul. From that, we received money for me to hire 
considerably more policemen. Commissioner Bratton and I 
received a great deal of funding. We were able to increase the 
size of our police department from, oh, I am going to say about 
34,000, 35,000 to 41,000.
    Aside from dealing with September 11, it helped us, 
certainly, in the massive reduction in crime, which, by the 
time I left, was a 65 percent reduction in homicide. But, on 
September 11, it left us with a large enough police department, 
although we did need help from other cities, that we were able 
to handle it and deal with it.
    But, every year, the funding was in doubt. Every year, we 
had to make cutbacks and then restore. We tried to manage our 
way through it. I think we did. But you are absolutely correct; 
the funding should be--we should know what it is, and we should 
be able to plan on it for a 5- or 10-year period.
    Law enforcement strategies--in particular, terrorism 
strategies--as the Chairman said, this is a long war. This 
requires 10 years of planning, 20 years of planning. Therefore, 
whatever funding Congress is going to provide, and the Federal 
Government, it should be consistent. As a mayor, which I no 
longer am, but if I was, or even, let's say, as a police 
commissioner or fire commissioner or head of emergency 
services, you should have a sense of what the funding is going 
to be 4 and 5 years from now.
    The mayor of New York City is required to produce a budget 
for 4 years, which I think is very, very smart. I thought it 
was one of the great things that came out of the fiscal crisis 
of New York City. It removes a lot of one-shots and tricks. 
Because I have to show, if I reduce now, what is going to 
happen 4 years from now, or if I increase now--and we can't 
factor the Federal Government in.
    I will make one final parochial point on behalf of my city. 
My city contributes considerably more to the Federal Government 
than the Federal Government contributes to the city. We are a 
donor city and a donor State, meaning we give you much more 
money in tax revenues than we get back in benefits. I am 
including all the benefits for Medicaid, Medicare, and the 
poor.
    Senator Moynihan used to publish that report every year, 
and he and I would hold a press conference to show that New 
York City was being shortchanged by $7 billion or $8 billion, 
the State by about $12 billion.
    So we don't come here as supplicants. We come here as 
contributors. We are giving you more money than you give us 
back. So at least give it back to us in a consistent way.
    Ms. Sanchez. Mr. Mayor, thank you for that. I happen to 
represent Orange County, California, and we are also a donor 
county, believe me.
    Mr. Giuliani. I know you are, maybe by even more because 
you have become larger. My numbers are, like, 13, 14 years old.
    Ms. Sanchez. So I understand and my people understand, in 
particular, the fact that we are community givers, in a sense, 
because we do pay more in taxes than we will ever receive back 
in that area.
    Let me indulge, if you will, just one more question, Mr. 
Chairman.
    This question is about, after the Boston Marathon bombings, 
the Harvard Kennedy School released a plan/action report where 
it identified the need for improved guidance regarding the role 
of political leaders and emergency managers during disaster 
response and how those entities ought to coordinate.
    So, going back again to your mayorship--and the reason I 
ask you, not because I don't think you are doing important 
things today, but, you know, that was a very specific time 
where you had, really, the largest ever known disaster on our 
homeland. But I know, since then, you have been working with 
mayors in other cities to ensure that they are ready and that 
things are going well in case there should happen to be an 
attack that we don't stop in the planning stages.
    So my question to you is: Can you describe your role in the 
incident command structure when you were here in New York, 
especially on that 9/11 day? What advice would you give other 
mayors and to us with respect to emergency managers and first 
responders during a disaster of that type? What lesson can we 
bring away from that, given your experience?
    Mr. Giuliani. Well, first of all, New York City is very 
fortunate in that it really isn't a city, it is a confederation 
of counties. We are five counties in the State of New York. In 
most cases, for example, in Miami or in Los Angeles, the city 
is an entity within a much larger county. Or let's take Boston. 
So when I had to deal with September 11 or the 30 or 40 other 
crises I had to deal with of a lesser scale--but since we have 
so many crises, our police, our firefighters, our emergency 
people are used to crisis. We have one entity.
    In Boston, the report that you are dealing with is talking 
about having to coordinate 7, 8, 9, 10, 12, 15 different police 
departments, as many different fire departments, some of whom 
are volunteer fire departments, maybe an emergency services 
unit, maybe not.
    So the job of coordination is much harder outside New York 
because New York is so big and because it is one entity. That 
doesn't mean we didn't have tremendous problems of 
coordination, but you can imagine that you multiply those 
problems by 10 or 20 when it is 7 or 8 or 9 different police 
departments that have to work together.
    Governor Pataki and I made a decision shortly after the 
attack. It was, I would say, 40 minutes. I was trapped in a 
building for 20 minutes. When I got out, I called the Governor, 
and the Governor and I decided to put our governments together. 
We set up a headquarters, first at the police academy and then 
on the pier because the police academy turned out to be too 
small. We made all our decisions together. I would have a staff 
meeting every morning when I was mayor; he would, as Governor. 
We had our staff meeting together. We did that for 2\1/2\ 
months.
    We did that because we realized that, first of all, a lot 
of bickering goes on between staffs that do not go on between 
principals. Second, there is a tremendous amount of bureaucracy 
in getting anything done, so if I had my commissioner and he 
had his commissioner and they were having a fight, we could 
resolve it right there and get it done and move it forward.
    So my recommendation is you have to do exercises. I am a 
big believer in relentless preparation.
    We had had numerous exercises in New York. At one point, we 
did an exercise with the Federal Government, pretending that 
there was a sarin gas attack right here at the World Trade 
Center. We brought in all the Federal and local people to see 
if they could work together, and we found out we knew very 
little about sarin gas and anthrax. Then we learned a lot about 
it.
    We did a mock plane crash on the border of New York City 
and Nassau County to see how they would work together and to 
make sure they knew how to work together in case there was a 
plane crash at Kennedy Airport, which borders right on the 
beginnings of Nassau County.
    We did table-top exercises like a possible sarin gas attack 
at a Knicks game, how would you evacuate?
    So one of the things, among many, that I urge and probably 
the most important is: A tremendous amount of preparation. Go 
through the incident before it happens so that when it happens 
you are not going through it for the first time.
    That is how I distinguish, let's say, the response to 
September 11, where the city, the State, and the Federal 
Government, which included FEMA, by the way, by that afternoon 
were sitting at the same table; and then the mistakes that were 
made in Katrina, where the Governor stayed in the capital and 
the mayor stayed in the city and FEMA stayed, well, somewhere.
    Ms. Sanchez. The sheriff stayed on the bridge, as I recall.
    Mr. Giuliani. Yeah.
    Ms. Sanchez. Thank you very much----
    Mr. Giuliani. Thank you.
    Ms. Sanchez [continuing]. Mayor.
    I am really blessed to represent an area where we have 
mutual assistance. So my 34 cities, the police and emergency 
and everything all fall under our sheriff----
    Mr. Giuliani. But they have to work at that.
    Ms. Sanchez [continuing]. Then, under our sheriff, we fall 
under the L.A. sheriff if it should be larger.
    You are right; I think one of the things we could do 
effectively, Mr. Chairman, is maybe to look at funding more of 
these exercises, because people really need to go through them 
to understand what to do when they happen.
    Chairman McCaul. I know in Boston it helped out 
tremendously.
    The Chair recognizes the gentleman from New York, Mr. King.
    Mr. King. Thank you, Mr. Chairman.
    Rudy, it is great to have you here today.
    I would just like to make a few points at the start.
    One, I want to thank the Port Authority Police, the great 
job they do, and acknowledge my friend and neighbor, John Ryan, 
for the job he did as chief of the department.
    Good to see you, John.
    Also, I would like to just comment on a few things that 
have been said.
    As far as the Homeland Security funding, we could always 
use more. There were some rough years, but I would say in the 
last several years it has stabilized. I actually commend 
Secretary Johnson for taking a number of those cities off the 
list, because the money should go to the cities that are 
targets. It makes no sense to be spreading Homeland Security 
funding all over the country. So this is a Democratic 
Secretary. I want to thank him for making the tough decisions 
and actually narrowing it down to the cities that really do 
need the money.
    I have to say that New York's funding for the last 3 years 
has been consistent. When President Obama came in, he did try 
to cut the Secure the Cities program, but we worked with him, 
and that has now been stabilized.
    So I would say that, while there are always problems and 
while we could always use more funding, the fact is that over 
the last several years New York has, I think, been treated 
fairly. I could ask, you know, Commissioner Bratton later, but 
I do think Department of Homeland Security has done a much 
better job on that.
    As far as the issue of the NYPD, no one has done more to 
stop domestic terrorism in this country than the NYPD. I know 
The New York Times is quoted as saying that the NYPD spies. 
First of all, I would rely on The New York Times for absolutely 
nothing, and what they call spying I call good police 
surveillance. You don't have to believe me, but John Brennan, 
when he was President Obama's homeland security advisor, said 
the NYPD was the model for the entire country as far as 
combating Islamic terrorism.
    If we are talking about profiling, whatever you want to 
term it, ethnic sensitivities, Rudy, you are Italian American, 
I am Irish American. When you were the U.S. attorney and you 
were going after the mafia, you went after the Italian American 
communities. I can tell you, when the FBI was going after the 
Westies, they hit every Irish bar in the west side of 
Manhattan. That is where they were, and that is where the 
arrests were made. Nobody was going to Harlem; nobody was going 
over there to find the Westies. They knew where to find them, 
and that was in the Irish neighborhoods.
    So I think we should put political correctness aside. These 
are deadly enemies we face, and if we cave in to The New York 
Times and the Civil Liberties Union and these people who want 
to wring their hands--the fact is, under Mayor Bloomberg, under 
Commissioner Kelly, 16 plots against New York City in 12 years 
were stopped. Under Commissioner Bratton, in less than 2 years, 
there has been 12 plots, I believe, that were stopped.
    What happened over the Fourth of July, what Bill Bratton 
did as far as stopping the threats against New York, the 
arrests that were made here in New York were just--again, if 
they had not been made, we would have a whole different climate 
here today. We came very, very close to being attacked over the 
Fourth of July by ISIS.
    So I think that should be on the record and we should start 
talking realistically and not just talking metaphorically.
    Rudy, you and I went to many funerals after 9/11, too many. 
We saw all the cops--the cops were killed, the firefighters 
were killed, Port Authority cops were killed. But people are 
still dying. Cops and firefighters are still dying as a result 
of the illnesses they incurred. I think the fire department 
alone--and Commissioner Nigro can talk with more authority on 
this--they have lost--I think 111 firefighters have died since 
9/11 from 9/11-related health illnesses.
    So I would ask you, again, as the former mayor who did a 
phenomenal job--and we can never thank you for the leadership 
you showed on September 11 and those weeks afterwards where you 
basically held the entire country together--the importance, if 
you could just speak, of extending the Zadroga Act. It expires 
this year; the funding will end next year. There are thousands 
and thousands of people from all over the country, 
firefighters, cops, who came to New York to volunteer. I think 
429 Congressional districts have people. The importance of that 
being extended and the suffering that those people are going 
through.
    Mr. Giuliani. Well, first of all, it is of critical 
importance. It shouldn't even be a question. It is a matter of 
duty that we owe to these people.
    I can tell you, as the mayor at the time and going through 
the trauma and shock of September 11, to have people come here 
from all over the country to help us was enormously important, 
for two reasons.
    First of all, even though New York City has the largest 
police department, the largest fire department, the largest 
emergency services components, significant presence of FBI and 
everything else, this attack was beyond our capacity.
    When I talked to Governor Pataki on the phone shortly after 
getting out of the building I was trapped in, the Governor 
thought I had died, and he said, ``Thank God. We thought you 
were lost.'' He said, ``Mayor, I know you don't like this, but 
I have prepositioned the National Guard, and I have put them on 
Randalls Island.''
    Now, why he said that was I always resisted the National 
Guard in New York City for any kind of civil disturbance, 
because, No. 1, I was quite confident my police department can 
handle it, and, No. 2, I don't like putting the National Guard 
in a law enforcement situation because there are differences 
that they are not trained for, and I don't want to see them 
getting in trouble doing something that a cop would know you 
can't do.
    When he said that, I had a totally different reaction, 
though. I said, ``Thank you for getting the National Guard, and 
if you can get 10 more of them, I need them.'' September 11 was 
way beyond New York City, so I needed all the help that I could 
get.
    Mayor Daley from Chicago sent me police officers and 
firefighters. Governor Bush from Florida sent me State police 
officers. I got help from Maryland, I got help from Indiana, I 
got help from every part of the country.
    No. 1, we needed the help. No. 2, we needed the emotional 
support even more than the help. We needed the feeling that we 
weren't alone, that we were being supported by the rest of the 
country.
    Think of it as the loss of a loved one. Your first feeling 
is that you are all alone, and then you have a wake or a 
gathering, and people come and hug you and squeeze you, and now 
you realize you are not alone in your trauma. Well, the 
presence of all those people that came here was enormously 
important.
    Many of them sacrificed their health to do that. I knew 
from the moment that started that this would be an enormously 
dangerous operation and was very worried that people would die. 
Almost saw a firefighter have his head decapitated by a crane 
that swung around, and he was tackled by another firefighter, 
who saved his life.
    So, look, these illnesses we don't understand. The simple 
fact is it has never happened to us before, so, at the time 
that it was happening and to this day, we are doing the best we 
can to try to figure out what the damage is, physical and 
psychological.
    I know people that are suffering from PTSD as a result of 
September 11. It is horrible to see, but they are. That is not 
going to stop tomorrow. That is going to go on next year and 
the year after and the year after.
    So I think this should be continued if we really mean that 
we are not going to forget.
    Mr. King. Thank you, Rudy. Thank you for your service.
    Chairman McCaul. The Chair recognizes Ms. Jackson Lee.
    Ms. Jackson Lee. Mr. Chairman, thank you so very much. Let 
me thank both you and our Ranking Member, Bennie Thompson, for 
your leadership.
    I think it should be noted here in New York, Mayor, that 
this is one of the most bipartisan committees in the United 
States Congress, and I am grateful for it. Because I certainly 
was not you, but, as a Member of Congress, I sought to come to 
this sacred place as soon as I could, and, in actuality, I 
managed to arrive when there was still the recovery process 
going on and became one of the early Members of the Homeland 
Security Committee, and, ultimately, the Department was 
created.
    We thank you for your service. We thank those--I had my 
office just print out for me the names of firefighters, police 
officers, fire marshal, and the chaplain you mentioned, just to 
reinforce for America that these souls gave their life for this 
Nation.
    As I walked into this place, I could not help but read, 
``No day shall erase you from the memory of time.'' I think, as 
Members of Congress, this is something that maybe we should 
carry for all of our very weighty decisions that we will be 
making.
    I know you know that we will be discussing a very important 
agreement come this week. I will not choose to discuss the 
Iranian non-nuclear agreement, but what I will say to the 
American people and to those that are listening, this will be a 
very vigorous debate with Members of Congress seriously 
considering the security of this Nation. Some of us will vote 
``yes'' because we have deliberated and believe it is the right 
decision. But what I want to give you comfort is that it will 
be a very vigorous, thoughtful discussion, working on behalf of 
the American people, as you have done.
    So I want to proceed to talk about the people whose lives 
were lost and whose memories will never be erased. To join with 
my colleague--and let me, of course, acknowledge Congressman 
King and Kathleen Rice and John Katko, New Yorkers, who have 
been outstanding on this committee. I thank them for their 
service and others who have gone on.
    But let me again agree with Congressman King. I am a 
champion of the reauthorization of this legislation dealing 
with those who were impacted. So I just want to be somewhat 
redundant and ask the question, is it not imperative that we as 
quickly as possible reauthorize the James Zadroga legislation, 
primarily because of what you said, but is there urgency there? 
Because, as I understand it, there are individuals whose 
sicknesses are being discovered, the length of sicknesses, 
people who are losing their lives. Is it imperative that we 
sort of move quickly on this?
    Mr. Giuliani. The simple answer is yes, and I underline 
that. It is important that you do move on it.
    I also would like to acknowledge, Congresswoman, from our 
previous encounters in the past that I know the bipartisan 
nature of this committee, how it has always worked to do the 
very best that it could to try to improve homeland security. I 
must tell you, just as someone who works in the field of 
security, I greatly appreciate what you do on both sides of the 
aisle and try very, very hard to reconcile differences, because 
you realize, as we did immediately after September 11, that, in 
protecting ourselves against terrorism, we are not Democrats 
and Republicans, we are Americans.
    Ms. Jackson Lee. I have another, sort-of, directed 
question, if I could. We have heard different perspectives on 
the funding, but I want to ask the question, the value of 
consistent funding for police departments, first responders 
having an ability to plan. You noted that you have a 4-year 
budget here, and, therefore, you would be willing to do that.
    As I do that, I can't leave out my city of Houston. 
Everyone has mentioned their area, and I want to bring 
greetings from the former mayor of the city of Houston, Mayor 
Lee P. Brown, who was a commissioner here in New York that many 
of you know and served very ably, and to note that Houston was 
one of the cities rumored on that day, primarily because of the 
energy resources that were there.
    But the consistency of funding, how important is that?
    Mr. Giuliani. It is very important. You know, it is like in 
business. Most people in business will tell you what we need to 
know is what we are going to get or not get and then we can 
make plans.
    Since the budget in New York City is an enormously complex 
process--it is now, I believe, a $78 billion budget, almost 
double the size it was when I was mayor--consistency is 
enormously important, in other words, knowing what you can 
count on so then you can go figure out how to make up the 
difference somewhere else.
    Ms. Jackson Lee. One last quick question, Mr. Chairman, if 
I could.
    I would like to submit into the record, Mr. Chairman--and I 
am going to combine a question to the mayor--H.R. 2795.
    Mr. Mayor, it is a bill that I have introduced called the 
FRIENDS Act, which is to assess the impact on first responders 
of the concerns regarding their families when they are being 
called off and may spend long days and hours away, the 
responsibility of the Homeland Security Department to look into 
resources for the families of first responders while they are 
engaged in fighting the war on terror, on the incident or the 
impact of war on terror.
    I would like to submit this into the record, H.R. 2795.
    Chairman McCaul. Without objection, so ordered.
    [The bill follows:]
                               H.R. 2795
114th CONGRESS                                                          
                  1st Session
To require the Secretary of Homeland Security to submit a study on the 
circumstances which may impact the effectiveness and availability of 
first responders before, during, or after a terrorist threat or event.

                             June 16, 2015

    Ms. JACKSON LEE (for herself, Mr. PAYNE, Ms. FUDGE, Ms. KELLY of 
Illinois, Mrs. BEATTY, Mr. PASCRELL, Ms. DELAURO, Mr. LARSON of 
Connecticut, Mr. NORCROSS, Mr. CASTRO of Texas, Mr. GENE GREEN of 
Texas, Ms. BASS, Ms. LEE, Mr. HINOJOSA, and Mr. PALLONE) introduced the 
following bill; which was referred to the Committee on Homeland 
Security

                                 A BILL

    To require the Secretary of Homeland Security to submit a study on 
the circumstances which may impact the effectiveness and availability 
of first responders before, during, or after a terrorist threat or 
event.
    Be it enacted by the Senate and House of Representatives of the 
United States of America in Congress assembled,

SECTION 1. SHORT TITLE.
    This Act may be cited as the `First Responder Identification of 
Emergency Needs in Disaster Situations' or the `FRIENDS Act'.

SEC. 2. CIRCUMSTANCES WHICH MAY IMPACT FIRST RESPONDERS DURING A 
TERRORIST EVENT.
    Not later than 260 days after the date of the enactment of this 
Act, the Secretary of Homeland Security shall submit to the Committee 
on Homeland Security of the House of Representatives and the Committee 
on Homeland Security and Governmental Affairs of the Senate a report on 
factors that would result in first responders failing to meet 
expectations based upon training and planning for terrorist incidents. 
The report----
        (1) may include information on first responder performance and 
        availability before, during, or after a terrorist threat or 
        event; and
        (2) shall----
                (A) include first responder input on how the presence 
                of family in the impacted area, the adequacy of 
                personal protective equipment, and training gaps may 
                influence performance and availability; and
                (B) contain recommendations to the Committee on 
                Homeland Security of the House of Representatives and 
                the Committee on Homeland Security and Governmental 
                Affairs of the Senate.

    Ms. Jackson Lee. Thank you.
    Mr. Mayor, then let me follow up my question on that. As I 
said, this bill deals with the idea of not leaving these first 
responders burdened with, ``What is happening to my family?'', 
that we should have some sort of response plan for families 
left behind while they are on. So I am going to ask you whether 
that is a valuable thinking that we should engage in.
    But I want to raise this point. As I started out, I 
indicated that this place, this hallowed ground was very moving 
to me as I walked in. I wanted to take a moment to honor the 
thousands of victims on this hallowed ground and those in 
Shanksville, Pennsylvania, and the Pentagon, which those of us 
who were in Congress at that time, Mr. Mayor, actually were 
there and saw as the plane came down on the Pentagon--it is a 
very real vision in our minds and our psyche--and to 
acknowledge those military personnel, as well, who went forward 
into battle after this time.
    As I note this particular hearing title, it does sort-of 
throw us into the arms of fear somewhat. I want to end on 
celebrating the bravery and the sacrifice of those who lost 
their lives. I would like to--because you have said that, any 
moment, we are subjected to the possibility of a terrorist act 
anywhere in the United States where the bad guys think that 
they can make a statement to the world about our democracy and 
our peace.
    So I would like you first to comment on the value of trying 
to think about the families of first responders. Then, second, 
I would like you to think about what I think you are proud of, 
is that New York City is a hallmark of resiliency and how it 
rebuilt itself from devastation and, in that, how we should 
be--I guess I am asking three questions--how we should be 
concerned about home-grown terrorism with the attitude that we 
stigmatize no race, no group, but we are conscious about that 
potential.
    So the FRIENDS Act, which is about the families; the 
resiliency; and then home-grown terrorists.
    Mr. Giuliani. Well, the FRIENDS Act makes a great deal of 
sense, Congresswoman. The reality is that the families suffer 
sometimes more than the responders. I have found, not just on 
September 11 but with the loss of almost 50 firefighters and 
police officers before September 11----
    Ms. Jackson Lee. Yes.
    Mr. Giuliani [continuing]. That the men and women who were 
engaged in the activity have the adrenaline and the, sort-of, 
satisfaction of doing what it is they believe they can do best. 
It is the families that are left behind to suffer.
    I come from a family with four uncles who were police 
officers and one who was a firefighter. He had been seriously 
injured twice, and I know how devastating that was on my 
family. When you get a big incident like this, this is 
something where there should be support for the families.
    I am very glad you mentioned the word ``resiliency,'' 
because I am enormously proud of the following fact: There are 
twice as many people that live in this area of New York today 
than before September 11.
    On September 11 and in the days after September 11, we 
weren't sure anybody was going to return here. The people who 
lived here had to be moved out; the businesses had to be moved 
out. Thank goodness to two companies, Merrill Lynch and 
American Express, who made clear immediately they would return. 
Other companies, I would have to spend enormous amounts of time 
on the telephone and in person begging them, pleading with them 
to come back. This went on for some time. I don't think we ever 
thought we would be able to get it back even to where it was.
    But to demonstrate the resiliency of New Yorkers and 
Americans, there are twice as many people living here today 
than before September 11. They fully recognize that this is a 
target, but they also realize that you have to have life go on 
and you can't let these terrorists terrorize us, right?
    Ms. Jackson Lee. Absolutely.
    Mr. Giuliani. A defense to terrorism is resiliency.
    Ms. Jackson Lee. Absolutely.
    Mr. Giuliani. It is a more subtle defense but a very, very 
important one. The resiliency of New Yorkers has been, I think, 
a real model, for which the people who live here should get 
great, great credit.
    This is a very vital community. It has Little Leagues, it 
has soccer leagues. This has become a community. Twenty years 
ago, this was purely, as you know, offices. This was Wall 
Street. Wall Street moved to Midtown, really, and this has 
become a mixed business/residential community. It is one of our 
most vital. Unfortunately, it is starting to get too darn 
expensive for a lot of people, but that is what happens.
    The second thing is, thank you for mentioning the bravery 
of the firefighters and police officers.
    The September 11 Commission, when they concluded with their 
recommendations and conclusions, made some very helpful 
observations--some laudatory, some critical, all very helpful. 
But one of the things they pointed out was that the New York 
City Fire Department saved 98 percent of the people they were 
capable of saving.
    I would like this committee to know that the first estimate 
that I was given of the number of losses was 12,000. That was 
the first number. By the end of that day, when I was asked the 
question, ``How many casualties do you think you had?'', the 
number that I had from all of our sources was 6,000. That is 
why I said--I didn't mention a number, and I said, it is just 
too much for us to bear to talk about that right now.
    Turned out to be less than 3,000. That is a terrible 
number, and it is the worst domestic attack in our history.
    Ms. Jackson Lee. Yeah.
    Mr. Giuliani. But the reason it wasn't 12,000 or 6,000 is 
because the firefighters and the police officers stood their 
ground, even when they were given an evacuation order. An 
evacuation order to a New York City firefighter means--or 
police officer--``I leave when all the civilians are gone,'' 
which means they were the last ones to leave, which is why so 
many of them died.
    But I can't tell you how many people come up to me, 
including outside the United States, who were in this building 
that day and thank me. You know what they say to me? Thank you 
for your firefighters, because if they hadn't remained calm, we 
could have lost more people in the evacuation than we lost in 
the attack. Now, I am not sure that is true, but they believe 
that.
    But we know of many evacuations that are chaotic and that 
lead to death during the evacuation. This was not a chaotic 
evacuation. This was an orderly, very well-handled evacuation. 
It only was that because these men and women gave up their 
lives. That is a source of, I think, tremendous strength for 
America.
    Imagine if the headline the next day, in addition to the 
fact that this was the worst attack in our history, was: It 
also was characterized by firefighters and police officers who 
ran away. Can you imagine how that would have affected the 
morale of the United States? How different was it that the 
headline the next day was about a terrible attack but also 
stories of incredible bravery on the part of the fire 
department, the Port Authority, the police department, and also 
single individuals, like from Morgan Stanley and others, who 
played the same role.
    Ms. Jackson Lee. Thank you very much. We are not allowing 
terrorists to terrorize us.
    Mr. Giuliani. That is absolutely right.
    Ms. Jackson Lee. Thank you.
    I yield back.
    Chairman McCaul. I thank the gentlelady.
    We have 8 members left for questions. We have a second 
panel. I am going to have to strictly enforce the 5-minute 
rule.
    With that, I recognize Mrs. Miller.
    Mrs. Miller. Thank you. I appreciate you enforcing the 5-
minute rule.
    Mr. Mayor--and I say that with the highest degree of 
respect, because, sitting here today in this place, in this 
sacred place, and having the opportunity--it was my first time 
to be here last night, and Joe gave us a tour of this facility. 
Every American thinking about where they were on that day. I 
think we were all talking about, where were you, where were 
you, what happened, what your thoughts were, et cetera.
    But when we think about--one of the things I think about 
then is that you, not being just the mayor of New York City, 
you were America's mayor at that time. You became America's 
mayor. The entire world looked to you for your news conferences 
so we could figure out what was happening. We would say, oh, 
well, here is Rudy, he will tell us what is going on. We were 
listening to you all the time.
    So being here today in this place and listening to you and 
your thoughts and remembrances are certainly a bit 
overwhelming, as some other Members have said, certainly 
emotional.
    But I think I am going to go right to picking up a little 
bit what you just talked about, the 9/11 Commission and some of 
the recommendations they made. Because, really, one of the 
things that--as you said, it didn't start on 9/11, but I think 
many people realize that we are facing such a different enemy 
than our country has ever faced before.
    The battlefield has changed. You don't see now over on this 
hill where everyone has got the same kind of uniform where you 
can immediately identify them. No, we are facing cockroaches, 
cowards. It is an asymmetrical battlefield, in urban settings 
now.
    Who responds? Not the military, in many cases, right? It is 
the first responders that are responding all over the country 
when there are things, whether it just happened in Chattanooga, 
various things that have happened here.
    But one of the key recommendations, I think, that came out 
of the 9/11 Commission was they said there were so many of the 
different agencies that were stovepiping their ability to 
communicate to one another. Really, the inability to 
communicate. I think, certainly, I have heard you speak on many 
occasions about some of the handicaps that you had here and the 
inability to communicate properly with one another.
    The 9/11 Commission said we need to go from the need to 
know to the need to share, the need to share information from 
all various agencies. Yet we still learned some of the 
lessons--you mentioned about the Boston Marathon bombings 
there, where, really--and we had a hearing on this. You know, 
you have 12,000, 13,000 FBI agents across the country; as you 
mentioned, there are 35,000 police officers here in New York 
City alone.
    One thing about the street, the street talks. The street 
talks. The ability to have law enforcement gather the 
information, share the information, and, from our best 
intelligence in our country, to make sure it gets down to the 
boots on the ground, and having interoperability, et cetera.
    So I guess I would just like to have you expand a little 
bit on how important it is to have the interoperability, the 
ability to communicate, the most simple thing in human 
behavior, communication, and how important it is, and for the 
Federal Government's role in making sure that we get the 
resources out into the first responders, that people can talk 
to one another about what is coming, what is happening, God 
forbid, when there is some other attempt, attack, what have 
you.
    Mr. Giuliani. Well, I will be very brief, because I think 
Commissioner Bratton can give you more details on this, 
because, both here and in Los Angeles, he was in the forefront 
of developing criteria that you use to try to identify 
terrorists. Well, it is all well and good to have that criteria 
or precursors of terrorism, and the New York City Police 
Department utilizes it, but I am not sure that is being done 
all over the country.
    It needs to be done, because, as we have now found out, 
although New York is a big target and the main target, I think 
we are now turning into a situation where there are many 
targets. With these lone wolves or smaller groups of 
terrorists, I think we are going to see smaller towns and more 
isolated places attacked. In a way, that produces its own kind 
of fear, like you are not safe anywhere.
    Therefore, this committee, I think, could play a very 
useful role in helping the Department of Homeland Security in I 
think what one of its main missions is, which is to make sure 
that every police department, every fire department, every 
emergency services department in the United States has at least 
a basic ability to deal with spotting terrorists, identifying 
terrorists, and then how to react if it happens.
    I very much appreciate your description of them as 
cockroaches, because that is a great example of the difference. 
These people are emerging from the ground. It is the police 
officers that patrol the streets who have the most knowledge of 
the ground. Sometimes it is the police officers who can 
interpret the intelligence better.
    There was one incident during September 11 when it took me 
4 hours to get the information from the Federal Government that 
I needed for my police commissioner and police department to 
interpret. I wanted the words. They had increased the threat on 
New York, but they wouldn't give us the words that were used. I 
finally was able to impress on--well, I won't say who in 
Washington. I think I said something like, ``I might cancel the 
World Series,'' because I wanted the words.
    Now, why did I want the words? I wanted the words because, 
if I could share that with my police department, the words, 
which may mean nothing to an analyst in Washington, might give 
a hint to my police officers that it is a bridge, a tunnel, a 
building that is going to be hit, because they may understand 
something in the language because they know the city. The 
analyst in Washington doesn't know the city, but our cops on 
the street know the city.
    One of the excuses I was given was, we don't share 
information like this with local law enforcement because local 
law enforcement leaks, to which, even though it was shortly 
after September 11, I just laughed and said, ``You are talking 
to somebody who was a Federal prosecutor for 17 years, and 
don't tell me the FBI doesn't leak. Ha.''
    So my department doesn't leak any more than the FBI, and we 
are not going to leak this information, because we know how 
critical it is. We don't have time to worry about leaks 
because, if you give it to me now, it can be actionable 
information. Otherwise, I am going to read about it 4 days 
later in The New York Times anyway. So you might as well give 
it to me.
    Your committee can perform a very useful function in 
breaking down that barrier. The protection against these 
cockroaches are our local police, but they need to get 
information in order to know what to look for. It is not just 
give information; they need to get information.
    These joint terrorism task forces are quite an effective 
way to do that, and I would really consider expanding them.
    Mrs. Miller. Thank you, Mr. Mayor.
    Thank you, Mr. Chairman.
    Chairman McCaul. The World Series went forward, and the 
President threw a perfect strike, as I recall, right?
    Mr. Giuliani. As challenged by Derek Jeter.
    Chairman McCaul. The Chair recognizes Mr. Vela.
    Mr. Vela. Thank you, Mr. Chairman. Thank you for holding 
this hearing in these solemn grounds. I think, as we go back to 
Washington, it is important to go back there with the 
perspective of knowing that what happened here was such a 
tragedy and that we owe it to our country to honor those who 
fell and who lost their lives.
    Thank you for your compelling testimony, Mayor. Thank you 
for reminding us how this area has flourished since 9/11.
    On 9/11, I was under a court order to take a deposition in 
New York City about a week later. You can't live too much 
further away, if you are an American, than I do, because I am 
from Brownsville, Texas. Opposing counsel and I had to make a 
decision, because there weren't too many flights going out, so 
we decided to drive. It took us 3 days. I remember, when I got 
here, it wasn't the New York City that I was used to visiting. 
I remember how quiet it was. I remember the dust. I remember 
just how gray it was.
    Then, several years later, I stayed at the very hotel 
across the street that we stayed in last night. I remember 
thinking to myself, I will never stay here again, because, by 
that time, the jackhammers had come back and they were starting 
to rebuild.
    Then, last year, at the invitation of Congressman Crowley, 
my friend from Queens, I had the pleasure of touring the new 
Freedom Tower. I was on the 64th floor, and the Port Authority 
gave us a tour. I remember being on that top floor and thinking 
to myself what a great tribute it was to the people of this 
city to be rebuilding.
    Then, of course, here we are today.
    But, at the end of the day, the most important thing about 
this hearing is that we, the American people, owe the people of 
New York a great deal of gratitude for rebuilding and for 
honoring the people that died here that day.
    I am going to limit my questions. I have two questions, and 
I am going to limit them to this.
    That is, we talked about the diversity of the threat that 
we face today, because it is not just in New York, it is all 
over this country. I am curious about what your assessment is. 
We know how prepared the city of New York, through Federal, 
State, and local cooperation, is to deal and prevent these 
threats--16 in the last several years. What is your assessment 
of how other places around the country are prepared to prevent 
those threats?
    Mr. Giuliani. Well, first of all, Mr. Vela, may I say that 
September 11 brought us together much closer than a country has 
ever been for about 2 or 3 months--no Democrats, no 
Republicans, no liberals, no conservatives, just Americans 
working together. But I can tell you, in New York, opposing 
counsel would never be able to drive in the same car to 
Brownsville, Texas, without beating the heck out of each other.
    Mr. Vela. Well, we did drive separately.
    Mr. Giuliani. Oh, okay. Now I got it. Okay. Because I know 
lawyers--lawyers aren't affected by any of this.
    But may I just interrupt for one second to suggest to you 
that one of the funding things you should consider is funding 
this as a National museum. There is a bill pending to do that. 
This really should be a National museum, because it affected 
the whole Nation. I would just like you to know how important I 
believe that is, that this be funded as a National museum.
    Mr. Vela. We will take that back to our committees of 
interest.
    Mr. Giuliani. I am sorry, the rest of the question?
    Mr. Vela. Yeah, I was curious what your assessment is of 
how other communities are----
    Mr. Giuliani. Oh, yes. It is very mixed, to be honest. In 
my ability to get around and talk to the police--and I travel a 
great deal. Some cities and counties are tremendously well-
prepared, and some are not well-prepared.
    I have always thought that the mission of the Department of 
Homeland Security is to get every place in America ready and to 
sort-of set a standard that every community should reach. I 
mean, everyone should understand anthrax and sarin gas and 
biochemical or biological agents and how to detect them. That 
is a function that the Department of Homeland Security should 
monitor.
    The present head of the Department of Homeland Security was 
one of my assistant U.S. attorneys, and I have great respect 
for him, and I think he is doing a very good job of trying to 
do that. Any assistance you can give him in that regard, I 
think, would be enormously important.
    I think we have to think of the fact that, although New 
York is a major target, as is the District of Columbia or Los 
Angeles, these new terrorists--let's call them that--might be 
thinking, let's attack them in places of less resistance, let's 
look for----
    Mr. Vela. Like Chattanooga.
    Mr. Giuliani. Like Chattanooga. Therefore, what that means 
is a tremendous burden on the Secretary of Homeland Security 
and the Homeland Security Department to get a lot of 
departments that wouldn't necessarily face a lot of emergencies 
up to speed.
    I think your encouragement and sensible funding of that, 
working with Jeh Johnson, could be a very important thing, 
because it is something he understands and it is something he 
is trying to do.
    Mr. Vela. Thank you.
    Chairman McCaul. Mr. Katko is recognized.
    Mr. Katko. Thank you, Mr. Chairman.
    Mayor, on 9/11, I remember standing in the U.S. attorney's 
office in Syracuse, where I was an organized crime prosecutor, 
and watching the events unfold, and it left an indelible 
impression on me. But what also left on impression on me was 
your leadership that day and your leadership in the days and 
months thereafter. I think you had a profoundly positive effect 
on our country, and I thank you for that.
    Since that time, I have watched you gain more experience 
and more knowledge on the whole terrorist threat globally and 
with respect to the United States. As I see it, the threat 
matrix has changed. Back on 9/11, people came to this country 
to attack us. Now we have the phenomena with ISIS where people 
within this country of ours, American citizens, are being 
implored to take up arms against the country, go blow up 
something, go shoot something.
    It is a very different threat matrix now, and I would very 
much like to have your impression on what you think is the best 
way to attack it.
    You kind-of touched on it with respect to the violent 
extremism and how it is branching out to different areas, it is 
not necessarily centered in one city right now or New York 
City, for example.
    The biggest thing that I am concerned about now is, how do 
you counter that violent extremism in the communities? One of 
the things I think we need to focus on is, in those communities 
Nation-wide, when we see people who might become radicalized, 
what do you do? How do you go about fighting it? How do you go 
about interceding before somebody who is drifting in the wrong 
direction does something terrible?
    I would like to hear your input on that.
    Mr. Giuliani. Well, first of all, the idea that there would 
be lone-wolf attacks or attacks that were self-generated, 2, 3 
people who were natives of the country doing this, in a way, 
our government, starting about a year ago, was acting as if 
this was a big surprise.
    Bin Laden wrote about this in 1997, and some of his 
surrogates encouraged this in 1998 and 1999. Gosh, it happened 
in London in 2005; those were home-grown terrorists. I don't 
know why we are so far behind all the time. It is----
    Mr. Katko. Again, we are not heeding the warnings.
    Mr. Giuliani. Yeah. I mean, I was one block away from the 
first bomb that went off in the Liverpool station with exactly 
the same police officer who was with me and got me out of the 
building I was trapped in--which was a heck of a coincidence, 
and it stopped getting me invited anywhere for about 5 years. 
But, if I recall correctly, all four of those bombers were 
citizens of the United Kingdom and two of them were born there.
    So, I don't know, I would think we would have started then 
saying to ourselves, this is a threat. Well, okay, finally, in 
the last year, we have recognized it.
    It does require a different law enforcement strategy, and 
it requires a different military strategy. It requires, as I 
said, the use of the police in a much more energetic way and a 
much more informed way as our eyes and ears.
    It also requires something that is controversial, but it is 
true: It requires understanding there is an organizing 
principle. These are not singular acts of crime like, you know, 
the shooting that took place in Brooklyn the other night at the 
West Indian parade or a shooting that might take place in 
Chicago or a shooting that might take place here or there, 
whatever.
    There is an organizing principle, much like the mafia was 
an organizing principle. A mafia murder in New York was 
different than a murder in New York. The mafia murder in New 
York had an organizing principle behind it, and these attacks 
have an organizing principle behind it. It is called their 
interpretation of how Mohammad taught jihad, on which Islamic 
scholars could have great debates.
    One interpretation of jihad is to remove or subjugate the 
infidel. This comes out of Islamic literature. Many reformed 
Muslims reject it, but some Muslims accept it.
    So there is an organizing principle here. If we act in a 
state of denial out of political correctness that this is the 
organizing principle, then we are going to miss a lot of these 
situations. Because that helps to give us some of the criteria 
that we are looking for that some people think, you know, 
should be ignored.
    So the reality is we need to train our police, we need to 
realize that the organizing principle here is jihad and their 
interpretation of it. That means we look in the places where 
that is going to be taught and exploited--social media, 
unfortunately mosques, certain groups that are more extremist 
than others--and that we somehow say the words ``Islamic 
extremist terrorist'' and not be condemned as bigots for saying 
it.
    Congressman King made a reference to the mafia. When I 
indicted the first group of mafia members in New York and 
referred to them as ``the mafia,'' I had a demonstration in 
front of my office by the Italian American Civil Rights League.
    The Italian American Civil Rights League was founded by a 
man named Joe Colombo, who was the head of the Colombo crime 
family.
    I also found out something I didn't know. In the Justice 
Department manual, it was improper to refer to a group as ``the 
mafia.'' I could have been penalized. You know they love to 
penalize in the Justice Department.
    Mr. Katko. Oh, yes. I was there for 20 years.
    Mr. Giuliani. Yeah.
    Mr. Katko. I understand that.
    Mr. Giuliani. I had actually violated a rule of the Justice 
Department in using the word ``mafia.''
    I said, well, punish me, because there is a mafia, and it 
has an organizing principle. You know what that principle is? 
Being Italian. That is the principle.
    When there were a bunch of car thefts in southern Brooklyn, 
I didn't go look for Hispanics or Asians or blacks. I went and 
looked for Italian kids, because they were doing all the car 
thefts. That was profiling, but if I hadn't profiled, I 
wouldn't have caught them.
    There are two kinds of profiling: Profiling based on hard 
facts that lead you to the criminal or criminal group or 
criminal enterprise here, jihad, or profiling just for the 
purpose of harming some particular group that is doing nothing 
wrong. So I think we have to define this word carefully.
    I think that political correctness has cost us lives. I do 
not think the attack at Fort Hood would have occurred if we had 
not been applying political correctness, and I think those 
brave people would be alive today. I think they died because of 
political correctness, because no one was paying attention to 
what was being written by the captain, in which he was 
predicting what he was doing. In fact, he was promoted even 
though his colleagues were saying that he had become very 
extreme, erratic, and a big exponent of jihad. I think he was 
not penalized, and promoted, because the people in the military 
were afraid that they would be accused of picking on people of 
a certain group.
    Mr. Katko. Thank you, Mr. Mayor.
    Chairman McCaul. Miss Rice is recognized.
    Miss Rice. Thank you, Mr. Chairman.
    Mr. Mayor, given your service as mayor to this great city 
of ours and your professional work since that time, how 
prepared do you think New York and this country are to handle a 
large-scale cyber attack? That is probably one of the more 
inevitable attacks that we have to look at. In your opinion.
    Mr. Giuliani. Not as well prepared as we are for the more 
traditional attacks.
    New York City is--and, again, Commissioner Bratton I would 
defer to, and he can explain it. But, from a long time ago, New 
York City has constantly increased under different 
commissioners its response to terrorism. New York City Police 
Department is doing a lot of work, as is the FBI, in 
cybersecurity.
    But, as a Nation, we are way behind in cybersecurity, way 
behind, because it can't be solved by the Government alone. 
American businesses have to spend a lot more money protecting 
themselves than they do.
    If you are the CEO of a large company that is publicly 
traded, your expenditures for cybersecurity come out of your 
profit and loss. It means a million dollars, $10 million, $100 
million, and you show less profit in that quarter. There is no 
countervailing benefit that you get for it. It isn't like 
hiring 50 people and they are productive and you can put 
something on the other side of the column.
    American businesses, No. 1, have not spent enough time or 
money on developing cybersecurity, and, No. 2, the methods and 
techniques that we use, in many cases, are contradictory. Not 
everyone works with each other. People don't want to share 
intellectual property. There are many problems in the area that 
you are talking about that have not received the same attention 
that the other things we talked about earlier--the physical 
security.
    That could be an area where this committee could play a big 
role in encouraging not only our Government, as we saw the 
vulnerability of the Internal Revenue Service--my goodness, 
that is frightening. It is absolutely frightening that someone 
can come in and get documents from the Internal Revenue 
Service. So I would say that is an area, maybe, where this 
committee should put some really great emphasis.
    One of the big mistakes we make, I think, is we prepare for 
the next attack as if it is going to be the same as the last 
attack. What they are trying to do is trying to figure out some 
kind of new attack.
    I think we have been forewarned about cybersecurity, so I 
am very glad you brought it up. I think it is something that 
should be given a great deal more attention by both the 
Government and the private sector.
    Miss Rice. Thank you, Mr. Mayor.
    Chairman McCaul. I thank the gentlelady.
    Mr. Hurd is recognized.
    Mr. Hurd. Thank you, Mr. Chairman and Ranking Member, for 
holding this.
    Mr. Mayor, thanks for being here today and your leadership 
during a difficult time.
    I would also like to thank the city of New York for hosting 
us. I am from Texas, and Texans and New Yorkers have a lot in 
common. You know, we are proud of our heritage, we have a bunch 
of great accents, and, you know, we are not afraid to fight for 
our country.
    This is the second time I have tried to be here. The first 
time I tried to come to this great facility, there were so many 
people here it was hard to get into. So that warms my heart, to 
know that there are many folks that are not going to forget 
what happened on those days of September 11.
    This is special to me because I spent 9 years as an 
undercover officer in the CIA. Mr. Mayor, you talked about 
Yemen. The day I left San Antonio, Texas, to start training in 
the CIA was the day of the Cole explosion. You know, we did not 
take seriously what our enemies were saying then. You alluded 
to that in your opening remarks. We weren't taking seriously 
what was being said in the late 1980s either. It is 
unfortunate, I am not nervous that we are not going to take 
seriously, or we are not taking serious enough, some of the 
concerns we are hearing all over the world from our current 
enemies.
    I have chased al-Qaeda all over the world--in India, 
Pakistan, and Afghanistan. They are a real threat. ISIS's 
ability to leverage social media is shocking. But one of the 
things that we have to do is we have to stop it where they 
live.
    You know, since you have been out of elected office, you 
have been a leader in emergency preparedness, public safety, 
leadership during crisis. You have been described as turning an 
ungovernable city into one of the world-wide examples of good 
governance and an effective management. You have done deals all 
over the world, so I am going to refer to you as a deal-maker.
    I have two questions, one on ISIS, one on Iran.
    What else should we be doing in these places like Syria, in 
some of these cities, to help them stop this fight, stop this 
scourge in their tracks?
    No. 2, my second question on Iran: As a deal-maker, 
usually, when you do a deal, people benefit on both sides of 
the deal. I am still having a difficult time figuring out how 
the United States benefits from this Iranian deal. I would love 
your insights on that.
    Mr. Giuliani. Well, on the second, I would refer you to 
Donald Trump, ``Art of the Deal.'' He would probably give a 
much more interesting answer that would get you much more 
coverage for this committee.
    But, on the second question, I think we were completely 
out-negotiated. If you just go back and look at what the 
premise of this negotiation was supposed to be, we lost on all 
those points.
    This all began, you know, 10 years ago with U.N. 
resolutions that Iran would be non-nuclear. It wouldn't have 
any nuclear--any nuclear power. For the reason that I stated, 
you would have to be an idiot to think they need nuclear 
facilities in a country that is oil-rich and natural-gas-rich. 
They don't need the peaceful use of nuclear power.
    So the premise of the original resolution was a non-nuclear 
Iran. We gave that away with a preliminary agreement when we 
began the negotiation with, how nuclear should Iran be?
    So what do we get back for that? The release of prisoners? 
An Iran that is going to give up being devoted to the 
destruction of Israel? An Iran that is going to give up being 
devoted to the death of Americans? An Iran that is going to 
stop funding Hezbollah, Hamas, the Houthis, and about 12 other 
groups that don't even have names yet? We didn't get anything 
back for that.
    Then we were going to have the Ronald Reagan ``trust but 
verify.'' Well, we are just trusting; we are not verifying it.
    First of all, we are consigning it to the IAEA. The IAEA 
was fooled twice by Iran before, in 2003 and 2005. The Fordow 
facility--I have forgotten the names of the other, actually, 
three facilities discovered by the MEK that the IAEA missed. I 
am sorry, I wouldn't trust them. I am a baseball fan. Three 
strikes and you are out.
    ``Trust but verify'' to Ronald Reagan meant we verify--we, 
the United States. We go in and we make sure that they are not 
hiding nuclear material like they did before.
    If anybody took the time to read Rouhani's memoirs, the 
reform Prime Minister of Iran, Rouhani brags in his memoirs 
that he fooled us twice before. He brags about it. It is 
astounding to me that we are trusting him.
    Then we are giving them 24 days--which, by the way, as a 
lawyer, having read the agreement, I could probably extend it 
to 6 months, because you can appeal. It is not us that raises 
the objection; it is the IAEA, who got fooled twice before--
actually, three times before.
    I am trying to figure out what we're getting out of this. 
We are getting out of this the promise that they are not going 
to become nuclear for 10 or 15 years. If you believe that, 
there is a bridge right near here I am willing to sell you. So, 
as a dealmaker teaching Dealmaking 101, I would give us an F.
    But that is no different than our reset of our relationship 
with Russia when we gave up the nuclear defense of the Czech 
Republic and Poland. What did we get in return for it? How 
about nothing? I would not sell my house for nothing. I would 
get something in return. Maybe if we had stuck to the nuclear 
defense of the Czech Republic and Poland, Crimea may never have 
happened.
    So I see a one-sided deal completely in favor of Iran. I 
see, worse than that, an Iranian empire developing----
    Mr. Hurd. Thank you.
    Mr. Giuliani [continuing]. With Iraq and Syria and Yemen.
    Mr. Hurd. Thank you.
    Chairman McCaul. Mr. Ratcliffe is recognized.
    Mr. Ratcliffe. Thank you, Chairman McCaul, for holding this 
hearing at this hallowed ground where nearly 14 years ago to 
the day America did look directly into the face of evil, an 
evil that took from us thousands of innocent lives in the most 
senseless and cowardly act of terrorism that the world has ever 
known. The evil of radical Islamic extremism changed the world 
that day. It changed the lives of everyone here in this room.
    For me, personally, it compelled me to become a terrorism 
prosecutor and later the U.S. attorney. For that reason, I know 
all too well what the radical Islamic terrorists remain capable 
of today. They will not stop, they will not relent, they will 
not give up in their quest to destroy the American way of life.
    We are here today in recognition of the fact that we, 
therefore, must remain ever-vigilant of the threat of radical 
Islamic extremism and those that seek to cause us harm.
    But here in this place, which will always serve as a somber 
reminder of the lives lost and a somber reminder of just how 
fragile our freedoms are, so, too, must this place always be a 
reminder of the heroic efforts of so many of our police, our 
fire departments, rescue personnel, and volunteer citizens who 
stood up in a historic time of need for this Nation.
    I include you in that group, Mayor Giuliani. Your 
leadership in the aftermath of 9/11 was something that not just 
this city but the entire country needed to rebuild and to 
persevere. It has been said and written by many that we all 
became New Yorkers at that time, and, in that respect, you 
became the mayor to all of us. I know I join everyone here and 
everyone around the country in telling you that we will forever 
remain grateful for your leadership.
    I came prepared today, as the Chairman of this committee's 
Subcommittee on Cybersecurity, Infrastructure Protection, and 
Security Technologies, to ask you your opinions on that. You 
have given your comments and answered most of the important 
questions that I came here to ask. So, out of respect for the 
second panel and respect for your time, I will just say thank 
you and yield back the balance of my time.
    Mr. Giuliani. Thank you very much, Mr. Ratcliffe. Let me 
just say two things very, very briefly.
    First of all, thank you very much for the compliments about 
leadership, but I would point out that I rested on the 
shoulders of giants, that whatever credit I get for leadership, 
there were hundreds and hundreds of people that were equally as 
heroic and more so than I was. It was from them that I derived 
my ability to move forward and do whatever I could to do. So 
the credit doesn't belong to me; it belongs to all of them.
    Thank you for your interest in cybersecurity because I do 
believe that, as Congresswoman Rice pointed out, this is the 
great threat that we face in the future, and it is the one that 
we are not paying as much attention to as we should.
    Mr. Ratcliffe. Thank you.
    Chairman McCaul. Mr. Donovan.
    Mr. Donovan. Thank you, Mr. Chairman.
    Mr. Mayor, when you are the most junior Member of a 
committee, by the time the questioning gets to you, you ask the 
witness what their favorite pizzeria is, and I already know 
yours.
    You were not only America's mayor, you were not only the 
mayor of New York City, you were my mayor. For all the people 
on this panel, I was a resident of New York City during your 
mayoralty, and I very much appreciate what you have done for 
this city, what you continue to do.
    Since that time, you have traveled throughout the country 
for the last 14 years. I remember calling a friend of mine from 
a different part of our country after the tragedy that happened 
right here and told them, wasn't it an amazing feeling to see 
all these cars with American flags flying on them, how people 
have come together? He said to me, what flags? There weren't 
flags flying from cars where he lived.
    Some people at that time--although we talked about the 
heroics of people from other cities coming to help us, a lot of 
people looked at this as an attack on New York and not an 
attack on America.
    This coming Friday, you and I will be going to many, many 
events in our city to continue our pledge that we will never 
forget. I am wondering, through your travels throughout the 
country, have people forgotten?
    Mr. Giuliani. Yes, some people have forgotten. But, you 
know, Dan, it is in the nature of just the human being that, as 
you move further and further away from an event, like the death 
of a loved one, you don't forget, but the impact of it isn't as 
great. Of course, the closer you are to an event, like, whether 
you are a New Yorker or you had friends in New York or--so I 
think it is the job of this committee to remind people of that.
    I want to conclude by commending this committee, from the 
day of this inception to today, Mr. King, Mr. McCaul, all of 
the Democratic Members, all of the Republican Members, I think 
you have been one of the most effective committees in Congress 
in the things that you have done. I think you have been one of 
the most effective in being able to forge bipartisan solutions 
where you could.
    I ask you, in closing, to please consider once again the 
legislation to make this a National memorial. Because this will 
serve to remind all Americans when we forget. Because I think 
that, unfortunately, this is going to be a war we are going to 
be in for a long time. So we have to keep reminding Americans 
of what is happening, because it is so subtle and it is so 
sometimes hard for them to see.
    Those of you who have been in it in some capacity or 
another know it. But it is the job of this committee and it is 
the job of this museum to make sure that the American people 
remain vigilant so, if it does happen again, it doesn't happen 
because we weren't paying attention.
    Thank you.
    Chairman McCaul. Mr. Clawson is recognized.
    Mr. Clawson. Got time for one more?
    Mr. Giuliani. Of course.
    Mr. Clawson. All right.
    First, I want to thank you for your service and for your 
bravery.
    Now, according to my economic understanding, the U.S. 
economy is about $16 trillion, maybe a little more. We are over 
20 percent of the global GDP. We are the engine of everyone 
else's economic growth, I think you would agree. Fifty billion 
dollars of trade deficit, roughly, every single month.
    I think that if China or the European community, just as 
two examples, had to choose between doing business with Iran 
and selling a product at Walmart or Target, what do you think 
they would decide? When I hear that this was a bipolar decision 
between this deal and war, I wonder what happened to our 
economy that is the growth engine for the whole world?
    Then, Mr. Mayor, I take it another step and say: We have a 
financial system--you may know better than me. How many 
billions of dollars just in arbitrage and hedges take place 
every day across continents?
    The way that foreign corrupt-practices law works is, if 
somebody does something wrong and they put their money into our 
financial system, they get nabbed quick, correct?
    Mr. Giuliani. Correct.
    Mr. Clawson. Yet, to my knowledge, in the Iranian deal, we 
have not used this awesome power of our being the center of the 
global financial system in the leverage for the deal. I am 
astounded that these facts are never really talked about and 
that we are making a deal that is based on verification without 
using the global economic leverage that seems so self-obvious. 
I must be missing something here.
    I am not trying to run anybody down, in particular, but I 
think that this idea that the sanctions would fall apart is 
only because we don't want to use our financial system or our 
global economic power.
    Am I missing something here, or would you agree with this 
different take on the Iranian outcome?
    Mr. Giuliani. I have not just grave reservations about the 
agreement; the agreement is, to me, frightening because we get 
so little in return, if anything, and we are creating an 
empire. We are making available to a country that is set on the 
destruction of our greatest ally, a country that is dedicated 
to killing Americans and continues to say that as they 
negotiate with us, we are making billions of dollars available 
to them.
    Everyone on this panel and everyone of any political party 
would agree that Iran is the biggest sponsor of terrorism in 
the world, state sponsor of terrorism in the world. There is no 
disagreement about that. Why, in God's name, would you give 
them billions of dollars?
    What does it mean to be a state sponsor of terrorism? It 
means you take money and you give it to terrorists. It means 
you take weapons and you give it to terrorists. It means, if 
you are a nuclear power, you take nuclear capacity and give it 
to terrorists.
    One of the main reasons that these resolutions began was 
not just a fear that Iran would attack Israel with missiles; it 
was the fear that, if Iran had nuclear capacity, it would hand 
it off to the terrorists that it is presently sponsoring and we 
could have a dirty bomb in New York or in Chicago or in London 
or in Paris. Somehow we have forgotten that.
    Iran should have no nuclear capacity. They cannot be 
trusted with nuclear capacity. Could we have used our economic 
power to stop it? Absolutely. Absolutely.
    Finally, when you say the only alternative is war, you make 
it clear that you will not go to war, which maybe would have 
been the greatest leverage of all if the military option had 
not only been kept on the table but maybe the military option 
were something they were afraid of.
    To win a negotiation, you need leverage. We gave away our 
leverage when we backed off that red line 12 times, because the 
Ayatollah took the measure of his opponent, and he took the 
measure of his opponent as, ``I don't have to worry about a 
military response.''
    Chairman McCaul. Mayor, let me just close by saying that 
there were many heroes that day, that fateful, tragic day, and 
you, sir, were the leader. You are America's mayor. On behalf 
of a grateful Nation, I just want to personally say, on behalf 
of the committee, thank you so much for your service.
    Mr. Giuliani. Thank you very much for coming here and 
reminding everyone of what happened and for your continuing 
work for the security of our country, which I think is just 
about the best in the United States Congress.
    Thank you.
    [Applause.]
    Chairman McCaul. In the interest of time, we will move to 
the second panel. Let me quickly introduce the next panel.
    First, we have Commissioner William Bratton, currently 
serving as the 42nd police commissioner for the city of New 
York. He previously served as commissioner of the Boston Police 
Department and the Los Angeles Police Department.
    Next, we have Commissioner Daniel Nigro, who currently 
serves as the 33rd commissioner of the New York Fire 
Department, joining in 1969. He has held every uniformed rank 
within the department during his 32-year career, including 
chief of the department following the attacks of September 11.
    Next, we have Mr. Ielpi, who serves as the president of the 
September 11th Families Association and is a member of the 
Vigilant Fire Department in Great Neck, New York, where he 
became a volunteer in 1963 and rose to the position of chief of 
the department. On September 11, he helped organize operations 
at Ground Zero until midnight and returned to the site daily to 
assist in the rescue of the operations. He continued his work 
for 9 months to ensure all who were lost were returned home, 
including his own son, Jonathan, who was in the Squad 288.
    Finally, we have Mr. Gregory Thomas, served as president of 
the National Organization of Black Law Enforcement Executives, 
serves as the senior executive for law enforcement operations 
in the Office of the Kings County District Attorney, where he 
is the principal liaison to New York City Police Department.
    The witnesses' full written statements will appear in the 
record.
    The Chair now recognizes Commissioner Bratton.

STATEMENT OF WILLIAM J. BRATTON, COMMISSIONER, NEW YORK POLICE 
                           DEPARTMENT

    Mr. Bratton. Good morning, Chairman McCaul and 
distinguished Members of this committee. My name is William J. 
Bratton. I am the police commissioner for the city of New York. 
On behalf of Mayor Bill de Blasio, I welcome you to New York 
City and to this 9/11 Memorial and Museum.
    The location of these hearings could not be more 
appropriate. This site was hallowed by the lives we lost in the 
terrible attack that happened here. It was consecrated by those 
who sacrificed here, whose heroism here kept those losses 
smaller than they could have been. It has been dedicated, 
through the Memorial and Museum, to a promise: We will never 
yield in our efforts to prevent another event from happening 
here or anywhere else in this great city.
    As you know, in 3 days, we will see the 14th anniversary of 
the September 11 attacks. In those 14 years, the New York City 
Police Department has changed dramatically. The traditional 
realm of municipal policing--the prevention of crime and 
disorder and the fostering of public approval--was expanded to 
include keeping the city and its people safe from terrorism.
    This morning, I will provide a brief overview of the 
current terrorism threat environment and describe some of the 
NYPD's counterterrorism measures that are constantly evolving 
and expanding. I provided more extensive written testimony to 
the committee, as well.
    In many respects, we currently face a greater likelihood of 
attack than we have seen in years. With regard to crime, New 
York City just experienced the safest summer in 25 years, but, 
with regard to the current terrorism threat environment, we now 
face multiple hazards: Known wolves and lone wolves, as my 
deputy commissioner of intelligence and counterterrorism, John 
Miller, says; al-Qaeda, particularly al-Qaeda in the Arabian 
Peninsula, or AQAP, which operates primarily out of Yemen. It 
remains a distinct threat. They are believed to be the primary 
driver of the terrible attack in Paris at Charlie Hebdo.
    But we have also seen the emergence a new virulent player, 
ISIL, or ISIS, or the Islamic State of Iraq in the Levant. By 
establishing a pseudo-state in the war-torn no man's land 
between Iraq and Syria, ISIL has fundamentally destabilized the 
Middle East and many other parts of the world.
    Fortunately, its direct impact has not yet been felt here, 
but the important words there are ``direct impact'' and 
``yet,'' because ISIL has been far more successful than al-
Qaeda at driving indirect impacts. ISIL has shunned al-Qaeda's 
model, which focuses on secretly recruiting and training small 
cells for the next grand attack. Instead, they have embraced a 
diffuse, lone-wolf model which mass-markets the global call for 
violence in the name of the so-called Islamic state.
    ISIL promises that those who carry out this carnage will be 
publicly revered on global social media. They will be 
remembered as heroic fighters who are an essential part of a 
larger struggle. This promise of valor, belonging, and 
empowerment has a particular appeal to those who fall in the 
margins of society, those who are failing at most other things 
in life. ISIL is focused on attacks that require minimal 
capability, low-tech, low-cost, and high-impact, because 
killing with a gun or a car or a simply-made IED is something 
even those who fail at most other things unfortunately can do.
    Most Americans, either most New Yorkers, don't know that 
the law enforcement and counterterrorism intelligence 
communities have been remarkably busy recently. In June alone, 
several men were arrested in New York, New Jersey, and Boston 
for taking part in ISIL-driven plots being pushed over social 
media platforms. These recent plots, most uncovered by the FBI-
NYPD Joint Terrorism Task Force, ranged from a plot to behead a 
New York-based critic after a failed attack at an event in 
Garland, Texas, to plots that involved building pressure-cooker 
bombs in the days leading up to New York's Fourth of July 
fireworks celebration.
    This wave of arrests comes after the JTTF arrested two New 
York City women in April, women who were in the process of 
researching explosive compounds to construct an IED. Among the 
targets they discussed for their bomb plot was a police funeral 
for officers killed in the line of duty. I am proud to say that 
I was able to meet and thank the undercover New York City 
police detective who spent more than a year on this case and 
was a lynchpin in that investigation.
    None of these plots, had they gone forward, would have had 
the scope of the attacks that happened here. In that respect, 
today's plots do not have the depth of those we face from al-
Qaeda, even at its strongest. But while the threat from 
terrorist groups is not as deep, it has grown now to be miles-
wide, indeed world-wide, and, in many ways, harder to track.
    After the worst terrorist attack in New York history, New 
York City certainly proved its resilience. But any terrorist 
attack against this city, regardless of scale, would have a 
profound effect--here, across the country, and throughout the 
world.
    That is why, even with the significant funding for 
Department of Homeland Security and its appropriators in 
Congress, the NYPD continues to invest our own resources in 
this fight.
    During the Charlie Hebdo attacks in Paris, we saw police 
driven back, even coldly executed, by terrorists with superior 
weapons and endless ammunition. An NYPD team flew to Paris and 
was fully briefed on all the lessons learned there. Another 
team of NYPD Emergency Service Unit officers and hostage 
negotiators went to Sydney, Australia, after an ISIL acolyte 
took hostages in a downtown cafe in Sydney. When ISIL-driven 
attacks occurred in the Bardo museum, our detective assigned to 
Interpol traveled to Tunisia.
    The collective lessons learned from these attacks formed 
our plans for the recently formed Strategic Response Group, or 
SRG. SRG is an 800-person unit, soon-to-be 800-person unit, 
specially equipped and trained to deal with crowd management 
but also terrorist-threat, active-shooter types of activity.
    We have also recently formed the Critical Response Command, 
CRC, which will take an interim initiative that was put in 
place by Commissioner Kelly shortly after 9/11 and now 
institutionalize it in our Counterterrorism Bureau--415 highly-
trained officers also specially equipped and trained to 
constantly deal with the growing threat that I have referenced.
    SRG and CRC are significant city-wide units, an additional 
1,200 officers that we will be focusing as part of the 
responsibilities on the growing threat.
    We also, within the past year, assigned 250 detectives to a 
new initiative that includes significantly increasing our 
capabilities to deal with cybersecurity threats both in the 
traditional crime world as well as the counterterrorism world.
    We have, within the last month, assigned a squad of 
detectives to the FBI to work with them on an expanding 
cybersecurity initiative that they have recently created. 
Within the next several weeks, I will be assigning another 
squad of detectives to District Attorney Cy Vance's office as 
he significantly expands, in the financial capital of the 
world, his efforts to deal with cybersecurity threats to our 
financial institutions.
    New York City remains in the cross-hairs of global 
terrorism. Since September 11, 2001, there have been more than 
20 terrorist plots against New York City, including those 
discussed above. So far, they have been thwarted at nearly 
every turn by the efforts of the NYPD and our local and Federal 
partners. That partnership, by the way, is stronger than it 
ever has been.
    Under Deputy Commissioner John Miller, the honored 
investigative reporter who was one of the first to interview 
Osama bin Laden when he began to make his threats against the 
United States, and then a veteran of the FBI, the LAPD's 
Counterterrorism Bureau, and the Office of the Director of 
National Intelligence, and now my counterterrorism intelligence 
director, we have undergone a collaborative reset with the vast 
variety of agencies, entities, and services with which we work 
every day.
    Together, we have continued to keep this city safe, and we 
have done so while upholding the Constitutional rights accorded 
to those who live, work, and visit New York City. Protecting 
civil liberties is as important as protecting our city. After 
all, it is our freedom that makes us a target for those who 
hate us.
    Mindful that a more detailed version of this testimony has 
been submitted and aware of the committee's mandate, I would 
like to thank you for inviting me to testify. I will be happy 
to answer any questions that the committee and its Members may 
have. Thank you.
    [The prepared statement of Mr. Bratton follows:]
                Prepared Statement of William J. Bratton
                           September 8, 2015
    Good morning, Chairman McCaul and distinguished Members of the 
committee. My name is William J. Bratton, police commissioner of the 
city of New York. On behalf of Mayor Bill de Blasio, welcome to New 
York City and to the 9/11 Memorial and Museum.
    The location of these hearings could not be more appropriate. This 
site was hallowed by the lives we lost in the terrible attack that 
happened here. It was consecrated by those who sacrificed here, and 
whose heroism here kept those losses smaller than they could have been. 
It has been dedicated, through the memorial and museum, to a promise: 
We will never yield in our efforts to prevent another event from 
happening here, or anywhere else in this city.
    As you know, in 3 days we will see the 14th anniversary of the 
September 11 attacks. In those 14 years, the New York City Police 
Department has changed dramatically. The traditional realm of municipal 
policing--the prevention of crime and disorder, and the fostering of 
public approval--was expanded to include keeping the city and its 
people safe from terrorism. This morning I will provide an overview of 
the current terrorism threat environment and the NYPD's 
counterterrorism measures.
    In many respects, we currently face a greater likelihood of attack 
than we have seen in years. With regard to crime, we just experienced 
the safest summer in 25 years, with murders and shootings at modern 
lows. But with regard to the current terrorism threat environment, we 
now face multiple hazards: ``Known wolves and lone wolves,'' as my 
Deputy Commissioner of Intelligence and Counterterrorism John Miller 
says.
    Al-Qaeda, particularly al-Qaeda in the Arabian Peninsula, or AQAP, 
which operates primarily out of Yemen, remains a distinct threat. They 
are believed to be the primary driver of the terrible attack in Paris 
at Charlie Hebdo.
    But we have also seen the emergence of a new, virulent player--
ISIL, or the Islamic State of Iraq and the Levant. By establishing a 
pseudo-state in the war-torn no-man's land between Iraq and Syria, ISIL 
has fundamentally destabilized the Middle East. Fortunately, its direct 
impact has not yet been felt here. But the important words there are 
``direct impact'' and ``yet.'' Because ISIL has been far more 
successful than al-Qaeda at driving indirect impacts. ISIL has shunned 
al-Qaeda's model, which focuses on the next grand attack. Instead, they 
have embraced a diffuse, ``lone wolf'' model, which encourages 
unaffiliated independent operators to do whatever damage they can with 
whatever is at hand.
    This threat is decentralized and much harder to detect than threats 
orchestrated by al-Qaeda. ISIL's alarmingly effective messaging--as 
refined as anything found on Madison Avenue or in Hollywood--reaches 
marginalized, solitary actors. These are terrorists who largely operate 
outside the kind of command-and-control systems, or cells, that we have 
learned to penetrate and dismantle. In the past year, we have seen many 
such attacks around the world, prompted by ISIL videos. Last October, 
here in New York City, an ax-wielding, radicalized malcontent attacked 
four of our officers in broad daylight, seriously injuring two. He was 
the human equivalent of an unguided missile: Launched remotely by 
messages directed at disaffected people on the fringes, people with a 
lot of anger and little to lose. There were similar attacks in Canada 
and Australia.
    Despite this, we have not wavered in our efforts. One example is 
the arrest, made by the FBI-NYPD Joint Terrorism Task Force (JTTF) in 
April, of two Queens residents who sought to make bombs like the ones 
used at the Boston Marathon is an example. That case was begun by an 
NYPD source and centered on an Intelligence Bureau undercover officer. 
Then in June and August, a group of men from Queens, Staten Island, and 
New Jersey were arrested by the JTTF for conspiring to join ISIL and 
for conspiring to carry out a terrorist attack in the New York City 
region.
    These cases and others demonstrate that New York City remains in 
the cross-hairs of global terrorism. Since September 11, 2001, there 
have been more than 20 terrorist plots against New York City, targeting 
the New York Stock Exchange, Citigroup headquarters, the Brooklyn 
Bridge, John F. Kennedy Airport, Times Square, Ground Zero, the subway 
system, major synagogues, and even NYPD funerals. So far, they have 
been thwarted at nearly every turn by the efforts of the NYPD and our 
local and Federal partners. That partnership, by the way, is stronger 
than is has ever been. Under Deputy Commissioner Miller, a veteran of 
the FBI and the Office of the Director of National Intelligence, we 
have undergone a collaborative reset with the vast variety of agencies, 
entities, and services with which we work. Together, we have kept this 
city safe--and we have done so while upholding the Constitutional 
rights and liberties accorded to those who live, work, and visit New 
York City.
    To accomplish this, I have been fortunate to build on the work of 
my predecessor, Police Commissioner Raymond W. Kelly. To his great 
credit, he recognized that the NYPD could not defer its 
counterterrorism responsibility to others, and he set about 
reorganizing the Department accordingly.
    Soon after 2001, the NYPD became the first police department in the 
country to develop its own robust counterterrorism capacity. At the 
time, we had already been in the Joint Terrorism Task Force for two 
decades, having co-founded the JTTF with the FBI here in New York. We 
had an intelligence division that focused on crime and protecting the 
many dignitaries and world leaders who come to New York, particularly 
during the United Nations General Assembly--the 70th Session of which 
is just weeks away. But the murder here of more than 2,700 people on a 
single morning meant that the Department's efforts had to be redoubled.
    We established a division responsible for training and equipping 
every one of our police officers for counterterrorism duties. Our 
intelligence mission grew to include gathering and analyzing 
intelligence with global implications. In these expansions, our 
personnel were our premier resource. Over the years, the caliber of 
people we have been able to attract has played a major role in our 
ability to protect New York.
    We have hired civilian intelligence analysts who are experts in 
intelligence and foreign affairs. They study terrorist groups, trends, 
and methods of attack.
    We have assigned police officers to serve as liaisons in 12 cities 
around the world: London, Madrid, Paris, Tel Aviv, Abu Dhabi, Amman, 
Lyon, Montreal, Toronto, Singapore, Santo Domingo, and Sydney. From 
these locations, and in coordination with our Federal and international 
partners, our liaisons can travel to the scenes of terrorist attacks 
that occur throughout Europe, the Middle East, Africa, and Asia to help 
analyze the specific tactics used, the type of weaponry and explosives 
involved, where the planning was conducted, and the nature of the 
targets--all to better learn how best to defend New York City against a 
similar attack.
    The liaisons are funded primarily by the New York Police 
Foundation, and their investment has paid dividends. Our liaison in 
France gave us real-time updates on the situation police confronted 
during the Charlie Hebdo attacks. After attacks at the Bardo Museum, we 
sent liaisons to Tunis and obtained on-the-ground intelligence. In 
2013, our detectives deployed to the scene of the Westgate Mall in 
Kenya following the heinous attack by al-Qaeda's Somalia-based 
affiliate al-Shabaab. In response to the 2012 deadly bus attack at the 
airport in Bulgaria, our liaison officer stationed in Tel Aviv was able 
to supply us with critical information on the tactics used by the 
attackers. The NYPD uses the information gathered from such assignments 
to adapt its tactics, techniques, and procedures to deter and/or thwart 
potential similar attacks in New York City.
    Our personnel's remarkable ethnic and national diversity affords us 
a deep pool of foreign-language-speaking officers. This has allowed us 
to build a foreign-linguist program with more than 1,200 registered 
speakers of 85 different languages--Arabic, Dari, Farsi, Mandarin, 
Pashto, Russian, Spanish, and Urdu, to name just a few.
    Our diversity has bolstered every aspect of our mission, from 
counterterrorism to crime fighting to community relations. Through our 
Community Affairs Bureau, we have assigned officers to the Arab and 
Muslim, Chinese, Eastern European, Hispanic, and West African 
communities who are actually part of those communities. The connections 
they make ensure that the community shares the responsibility for 
counterterrorism. It's a force multiplier when it comes to keeping the 
city safe. To facilitate this shared responsibility, we established 
``New York City Safe,'' a terrorism-threat hotline, where concerned 
citizens can report suspicious activity.
    In addition to our community outreach efforts, we also coordinate 
closely with outside partners, including the Federal Government, 
regional law enforcement agencies, and the private sector. We continue 
to work hand-in-glove with the JTTF, sharing information and following 
up on terrorism-related leads. We also assign personnel to the Drug 
Enforcement Administration's Special Operations Division, the High 
Intensity Drug Trafficking Area Task Force, the National Intelligence 
Council, and U.S. Customs and Border Protection.
    Through a program called Operation Sentry, we also share 
information with more than 150 law enforcement agencies throughout the 
Northeast and Mid-Atlantic. We conduct various types of training with 
our Sentry partners, hold video-conferences on emerging threats, and 
exchange best practices with respect to terrorist and traditional crime 
matters. These collaborations are utterly necessary in a world where 
terrorists--and criminals--ignore the borders and boundaries that limit 
us. Terrorists frequently develop their plot outside their target 
areas. In 2005, the suicide bombers who struck the London transit 
system built their bombs in Leeds, 180 miles north of the target. 
Closer to home, the first World Trade Center bombing in 1993 was 
planned across the Hudson River, in New Jersey. Faisal Shahzad, who 
attempted to detonate a car bomb in Times Square in 2010, assembled his 
explosives in Connecticut.
    For an understanding of how important collaboration in these 
matters is, look no further than Shahzad's comment to the officers who 
removed him from a plane at JFK minutes before he might have escaped: 
``I was expecting you--are you NYPD or FBI?'' The answer was neither--
they were Customs officers. In the task of keeping us safe, everyone 
has a role to play.
    We collaborate with the private sector, as well--there are nearly 
13,000 members of the region's private security industry who 
participate in a program called ``NYPD Shield.'' The membership 
consists of security professionals tasked with protecting critical 
infrastructure and sensitive buildings in the New York metropolitan 
area. Through the Shield program, we regularly host conferences, 
sector-specific briefings, and training seminars as well as share NYPD 
strategic assessments on terror trends. Under another initiative, 
Operation Nexus, our detectives have made over 55,000 visits to 
businesses that make, sell, or inventory products, services, or 
materials that might be exploited by terrorists, such as truck rental 
outfits, fertilizer stores, and chemical supply companies. We ask them 
to contact us if they see anything unusual, anything that gives them 
pause.
    Having the right personnel and partnerships is part of the 
equation, but monetary resources are required, as well. Since 2002, the 
Department has been awarded $1.4 billion in Federal counterterrorism 
funds, which have been used for mission-critical equipment, training, 
and salaries. In this respect, Department of Homeland Security grants 
and other disbursements have played an integral role in protecting the 
8.5 million people who call New York City home, the millions more who 
live in and work in the greater metropolitan area, and the 56 million 
visitors we have each year.
    Over the past several years, the ``Securing the Cities'' program 
has spent more than $21 million installing radiation detection 
equipment throughout neighboring jurisdictions and at key points of 
entry into the five boroughs. Across the city, we have distributed 
approximately 3,000 radiation pagers to units throughout the department 
and nearly 4,000 radiological dosimeters to each Patrol Borough's 
counterterrorism trailer. Even as this funding to the greater New York 
City region is being reduced, the NYPD continues to invest heavily in 
acquiring and maintaining state-of-the-art equipment to identify, 
prevent, or disrupt threats. From sonar systems to thermal imaging 
cameras, we have installed highly-sensitive detection equipment on the 
boats and helicopters we use to patrol New York Harbor. Police vehicles 
are also outfitted with similar detection capabilities.
    We have also benefited from DHS grants in developing our Domain 
Awareness System, or DAS. Over the past 6 years, approximately 
$325,000,000 has been expended, primarily through multiple DHS grants. 
When DAS is fully implemented, New York City will be one of the most 
target-hardened cities in the Nation, with more than 6,600 closed-
circuit television cameras (CCTVs) and nearly 500 license-plate-
recognition readers (LPRs) on every bridge and tunnel coming into and 
leaving Manhattan. High-definition CCTVs with thermal-imaging 
capability are already mounted on helicopters and mobile LPRs are 
deployed in both marked and nondescript vehicles to aid in the tracking 
and interdiction of suspect vehicles, allowing for a rapid response to 
major incidents. Where DAS really opens new horizons, however, is in 
its data collection. All sensor data will be correlated with records 
data from NYPD and external databases, and contextual alerts will be 
provided to users. Geographic analytic mode capabilities will support 
pattern identification among disparate data types. The DAS project also 
continues to expand as additional capabilities, functions, and sensors 
of various forms (CCTV, CBRN, etc.) are integrated.
    Additionally, thanks to funding from the Mayor and the Manhattan 
District Attorney's Office, the NYPD is implementing its ``Mobile 
Digital Initiative.'' Mobile Digital puts a smart phone in every 
uniformed officer's hands and a smart tablet in every vehicle. The 
Project is ramping up and we expect to see steady-state deployments 
beginning in August, with a completion date of February 2016. These 
devices will be DAS compatible, making every one of the NYPD's 35,000 
officers a counterterrorism asset.
    We are also developing and implementing a robust cybersecurity 
program. Malicious software, data exfiltration, and exploits all take 
place in the virtual realm of a computer network. In order to monitor 
and mitigate such an attack, the NYPD must possess the appropriate 
sophisticated security tools. The Department's existing cybersecurity 
capabilities are not adequate to fully defend the Department in the 
current threat landscape. Accordingly, the NYPD has commenced the Total 
Network Visibility Initiative (TNVI), an innovative methodology 
utilizing a variety of reporting mechanisms such as log and packet 
inspection, net flows and edge monitoring, among other techniques. 
These techniques will allow network defenders to ``see'' the malicious 
action in cyber space, and take necessary actions to rapidly mitigate 
threats to NYPD Information Systems.
    These personnel and resources are fully leveraged to apply the 
NYPD's counterterrorism measures.
    We constantly seek to disrupt budding plots. Every day, through 
Operation Hercules, we deploy teams of heavily-armed officers to make 
unannounced visits to iconic locations.
    We place particular emphasis on the subway system in light of its 
primacy as a target and because it is a vital artery that keeps this 
city running. In excess of 6 million New Yorkers use the subways every 
day. Protecting this system is one of our top priorities and greatest 
challenges. The system is designed to be open 24 hours a day, every day 
of the year. Its very strengths as mass transit leave it vulnerable to 
attack. After the bombing of the London transit system in 2005, we 
began screening the bags and backpacks of subway passengers. Every day, 
we maintain posts at each of the 14 underwater subway tunnels. Thanks 
to a Federal grant, we were able to hire over 100 police officers for 
our Transit Impact Program and re-assign an equal number of veteran 
officers to our transit-based Anti-Terrorism Unit. They conduct mobile 
screenings, transit order maintenance sweeps, surges, and counter-
surveillance. We have heightened uniformed patrols underground and 
conduct regular security sweeps of subway cars.
    The salaries and overtime for all of the specialized 
counterterrorism teams described above, including those for detectives 
and analysts in the Intelligence Bureau and on the Joint Terrorism Task 
Force, accounted for more than $420 million of the Federal funds 
allocated to NYPD since 2002.
    We also prioritize counterterrorism training. Since 2002, we have 
dedicated $100 million of Federal counterterrorism funds to training 
programs, including Behavioral Observation and Suspicious Activity 
Recognition; Hostile Surveillance Detection; Initial Law Enforcement 
Response to Suicide Bomber Attacks; Advanced Explosive Trace Detection; 
Awareness and Response to Biological Events; Chemical Ordinance, 
Biological and Radiological Awareness Training; and Maritime Incident 
Response Team Training.
    The Department conducts and participates with other New York City 
and Government agencies in counterterrorism exercises including 
tabletop, functional, and full-scale (i.e. ``boots on the ground'') 
drills. The Department has taken part in dozens of major exercises to 
plan for and safeguard against chemical, biological, radiological, or 
nuclear attacks, in addition to another dozen workshops with our 
Securing the Cities regional partners. Utilizing lessons learned from 
previous terror attacks, including those garnered from our liaisons 
abroad, the Department holds regular exercises to examine potential 
threat scenarios and capabilities that will be required to successfully 
respond to and mitigate the threat.
    In addition to those mentioned above, in the past year we have held 
active-shooter exercises, including one recently conducted just above 
us in the new World Trade Center Tower. We have conducted simulated IED 
attacks, staged various attack scenarios at high-profile events; and 
conducted exercises involving dirty bomb detonations at subway stations 
and platforms. These exercises inform our special event planning and 
response. For example, based on lessons learned the Department may 
deploy physical security measures such as temporary barriers; Critical 
Response Vehicles; heavy weapons teams; canine assets; bag screening; 
explosive trace detection; hostile surveillance detection; or radiation 
detection.
    These are some of the tools we are using to keep pace with the 
evolving threat of terrorism. The philosophy behind them is simple: We 
have to develop the best intelligence available, expand our 
partnerships, and take protective measures to defeat whatever our 
adversaries might be planning next.
    Because unfortunately, our adversaries have multiplied in recent 
years. As was discussed above, organized, well-equipped attacks like 
the one in Paris remain part of the threat picture, but we now face the 
diffuse threat of the ISIL-inspired lone wolf, as well. To address this 
new, more complicated reality, the NYPD is changing its 
Counterterrorism Critical Response Vehicle model.
    Thanks to Mayor de Blasio, who authorized the first headcount 
expansion in more than a decade, we are getting 1,300 new officers. The 
staffing increase has allowed us to take what was a temporary 
deployment scheme and make a permanent Critical Response Command. 
Instead of drawing hundreds of officers from the patrol precincts 
randomly each day and depleting local patrol resources, the CRC will be 
staffed with dedicated personnel specially trained for the 
counterterrorism mission. On a day-to-day basis, they will protect a 
range of critical infrastructure and important sites. But they also 
provide support for our Emergency Services units and counter active-
shooters, ``lone wolf'' attacks, or more sophisticated operations such 
as those in Paris or Mumbai. All personnel will have received advanced 
training in counterterrorism operations and will be equipped with 
highly-advanced and specialized equipment, such as explosive trace 
detection equipment and under-vehicle inspection systems.
    Finally, I wish to assure the committee that our commitment to 
public safety and security does not trump our commitment to privacy and 
Constitutional protections. Protecting civil liberties is as important 
as protecting the city. After all, it is our freedom that makes us a 
target for those who hate it. Our terrorism-related investigations are 
treated with particular care because we recognize that they may, at 
times, implicate the First Amendment and other important issues. 
Accordingly, we abide not only by the U.S. Constitution and other 
applicable law, but also a Federal consent decree that imposes 
additional checks on our counterterrorism investigations.
    Fourteen years after 9/11, New York enjoys the distinction of being 
the safest big city in America. It is also commercially vibrant, 
culturally diverse, and free. These successes are due, in no small 
measure, to the 50,000 uniformed and civilian members of the New York 
City Police Department, who, together with our partners, including the 
distinguished Members of this committee, have sought and strived and 
never yielded in keeping the city safe.
    Thank you again for this opportunity to testify. I would be happy 
to answer any of your questions.

    Chairman McCaul. Thank you, Commissioner Bratton.
    The Chairman recognizes Commissioner Nigro.

   STATEMENT OF DANIEL A. NIGRO, COMMISSIONER, NEW YORK FIRE 
                           DEPARTMENT

    Mr. Nigro. Well, thank you. Good morning, Mr. Chairman and 
all the Members present. Thank you for having me here today.
    Since I joined the FDNY in 1969, there has been a 
tremendous shift in the way we train and prepare the members of 
the FDNY. The department's primary mission has always been to 
protect life and property, but in the ever-changing threat 
environment of a post-9/11 world, that mission has become even 
more complex.
    The department has confronted this challenge by building an 
infrastructure that identifies potential threats, builds a 
response plan, and trains members to carry out those plans.
    The result is the FDNY is prepared at a moment's notice to 
provide rescue and triage in an infinite array of potential 
scenarios and disasters. Not only does this ensure we are 
prepared in the case of a terrorist event, but it also means 
the department functions as a robust regional asset that can be 
deployed in almost any kind of disaster scenario.
    The value of this has been seen nationally, such as when 
the FDNY responded to New Orleans after Hurricane Katrina, as 
well as State-wide, as when we responded to the record 
snowstorm in Buffalo earlier this year.
    These assets can also be utilized locally to prevent a 
crisis, such as when a case of the Ebola virus reached New York 
City. The FDNY was able to draw upon a preparedness framework 
combining training, resources, and drills that specialized 
units developed preparing for bioterrorism threats. This 
includes decontamination procedures and operating in chemical-
protective clothing which, as an added benefit, also protects 
against bloodborne pathogens.
    DHS funds helped build and train the Haz-Tac and Haz-Mat 
units that played a key role in the response and supported the 
purchase of specialized equipment and resources that provide 
emergency medical transport, treatment, and patient care.
    The planning, training, and equipment the FDNY utilizes can 
be applied in any mass-casualty situation, whether a terrorist 
attack, natural disaster, industrial accident, pandemic 
outbreak, or biological event. This ensures that we are not 
only prepared to respond to likely scenarios but that we have 
the training and capability to respond to any threat presented 
to us, expected or not. This is not a capability the department 
had on 9/11, and our ability to build this capability has been 
largely as a result of the funding we have received from the 
Federal Government.
    A perfect example of how even the day-to-day work of the 
FDNY is impacted by this training is the Times Square bombing 
attempt in 2010. Though first responders from Engine 54 and 
Ladder 4 initially responded to a typical fire call, once on 
the scene, they immediately recognized the threat potential of 
the smoking vehicle and ensured the appropriate law enforcement 
resources were called to the scene. They took action that day 
that reduced injuries, protected property, and saved lives.
    This type of training is happening every day in the FDNY 
and is essential to our ability to serve the city of New York. 
By investing in core areas--planning, incident management, 
leadership, communications, patient triage and treatment, Haz-
Mat, marine firefighting, and search and technical rescue--we 
are better prepared to adapt to a changing threat environment 
if disaster strikes. We have structured our core competencies 
to respond to routine and extreme events, including acts of 
terrorism.
    Thank you again for the opportunity to speak here today on 
this important topic.
    [The prepared statement of Mr. Nigro follows:]
                 Prepared Statement of Daniel A. Nigro
                            Septmber 8, 2015
    The FDNY's primary mission is to protect life and property. The 
department carries out this mission through firefighting, search and 
rescue, pre-hospital patient care, and hazardous materials mitigation. 
The planning, training, and equipment mentioned below can be applied in 
any mass casualty situation, whether a terrorist attack, natural 
disaster, industrial accident, pandemic outbreak, or biological event.
                        preparedness core values
    The department builds systems, like our Tiered Response System, 
which can be scaled and adapted to ensure the right mix of resources 
and expertise, depending on the type of incident or emergency. The 
department also builds systems of collaboration, partnering with other 
city agencies and regional responders to share lessons learned, and to 
develop interagency plans, protocols, and drills. Members of the 
department have acquired a tremendous amount of knowledge and know-how 
since 
9/11, and this knowledge is helping the city plan and prepare for 
extreme hazards and emergencies. The department has also invested in 
specialized training facilities--revamping our Fire and EMS Academies--
and environments, like our Shipboard Simulator and our Subway 
Simulator. These tools not only serve the FDNY, but are considered city 
and regional resources.
           the center for terrorism and disaster preparedness
    At the core of these preparedness efforts is the Center for 
Terrorism and Disaster Preparedness (CTDP). We created the Center in 
2004 to be the focal point for the department's strategic preparedness, 
creating dynamic and practical approaches to counterterrorism, disaster 
response, and consequence management. The development of CTDP came out 
of the 9/11 McKinsey After Action Report (AAR).
    The Center's core competencies include: Intelligence sharing, 
weapons of mass destruction (WMD) and security preparedness, exercise 
design, emergency response planning, education, strategy and 
technology.
    Intelligence sharing.--The intelligence branch of the Center has 
expanded the FDNY's role to become an active producer of intelligence 
tailored to the needs of fire fighters and emergency responders. The 
department uses a PC and web-based communication tool--Diamond Plate--
to deliver critical training and situational awareness content directly 
to firehouses and EMS stations in real-time. With firehouses and EMS 
stations located throughout the city, this tool has helped the 
department leverage technology to share information and to break down 
distances. In recent months, this platform has been a key resource to 
disseminate information to our first responders on Ebola and 
Legionnaires' Disease--videos, information, procedures and safety 
protocols--and to share messages with our entire workforce.
    WMD and Security Preparedness.--The primary mission of the Center's 
WMD branch is to coordinate strategy and tactics, and share chemical, 
biological, radiological, nuclear, and explosive research. For example, 
we are currently working with the Department of Health and Mental 
Hygiene to collect, share, and map radiological data during radiation 
emergencies, which will allow our commanders in the field and at the 
FDOC to visualize contaminated areas. We have also strategically 
deployed a stockpile of WMD medical counter-measures in EMS stations 
and hospitals, and we also train and carry WMD antidote kits on every 
9-1-1 ambulance and fire apparatus.
    Exercise Design.--CTDP conducts workshops, tabletops, functional, 
and full-scale exercises to test the knowledge and efficacy of the 
Department's all-hazards response protocols. CTDP also makes 
recommendations on improvements in detailed after-action reports. The 
CTDP has partnered with the Department of Homeland Security (DHS), 
NYPD, NYC Office of Emergency Management, the West Point Combating 
Terrorism Leadership Center, and the Centers for Disease Control to 
plan and prepare exercises for natural, accidental, and terrorist 
events. On average, CTDP runs 35-40 preparedness exercises each year.
    Emergency Preparedness.--The Center creates and updates emergency 
response plans to provide both general and detailed tactical direction 
for units responding to terrorist events and natural disasters. As part 
of this planning, the Center helps develop and maintain the FDNY's 
continuity of operations plans. This team has developed plans for the 
following events: Haz-Mat release, subway chemical attack, bio-
response, improvised explosive device, collapse rescue, and hurricanes. 
As mentioned above, the department is also building systems of 
collaboration. An example of this is the work that the FDNY and the 
NYPD are doing to respond to a large-scale Active Shooter Mass Casualty 
Incident (MCI). The FDNY/NYPD have worked together to develop a 
``Response to Active-Shooter Incidents'' emergency response plan, and 
have begun conducting drills on the plan.
    One of our concerns is the use of fire as a weapon. The devastating 
2008 attacks in Mumbai represent a game-changer. Over 3 days, a city of 
nearly 14 million was held hostage while 166 people were murdered in 
multiple locations, introducing a new model for terrorist attacks. The 
salient features of a Mumbai-style attack include multiple terrorists, 
multiple targets, and multiple modes of attack deployed over a 
prolonged operational period to amplify media attention. Despite all of 
the violence, the most iconic images from that event remain those of 
the Taj Mahal Hotel on fire. The pictures of people at the windows of 
the hotel trying to escape the flames are reminiscent of 9/11. Despite 
the striking images from that major attack, interest in using fire as 
either a strategic or a tactical weapon has not been well understood 
and largely ignored to date. However, it is a weapon that could 
significantly alter the dynamics of a terrorist attack. FDNY is working 
closely with NYPD, the FBI, and The Department of State's Diplomatic 
Security Services to develop the procedures for joint tactical teams--
teams comprised of fire personnel and security forces operating 
together--in an environment with armed terrorists, fire and smoke, and 
mass casualties. All three agencies have been working with us in full-
scale exercises at the Fire Academy and more are being planned.
                       special operations command
    In addition to the extensive planning discussed above, the FDNY has 
significantly enhanced our Special Operations Command (SOC) 
capabilities, so that we are more prepared than ever to deal with 
incidents involving biological, chemical, or radioactive releases, 
major structural collapses, maritime operations, and other major 
incidents with mass-casualty potential.
    The underpinning of these enhancements is the ``Tiered Response 
System'' that we established to ensure the optimal availability and 
distribution of response resources. This tiered-response framework 
entails training FDNY units in a variety of response capabilities at 
incremental proficiency levels and strategically locating those units 
across the city.
    Let me illustrate this Tiered Response structure for hazardous 
material incidents. At the highest level--the Specialist Level--is our 
Hazardous Material Unit and Haz-Mat Battalion Chiefs who have over 600 
hours of professional training and carry advanced instrumentations. The 
next level is comprised of 12 Haz-Mat Tech II Units and 39 Haz-Tac 
Ambulances. At the next level down we have 25 Haz-Mat Tech I Units, 25 
Decontamination Engines and 29 Chemical Protective Clothing Ladder 
Companies who can operate in hazardous environments. At the foundation 
level, all fire and EMS personnel are trained on Haz-Mat/WMD 
operations. As you can see, our tiered response system provides a very 
robust structure for Haz-Mat response and mitigation.
    Our collapse search-and-rescue members are structured in a similar 
manner and receive the highest levels of training the department offers 
in technical rescue and victim-removal, including more than 280 hours 
of specialized rescue training in collapse response and rescue 
operations.
    Our Emergency Medical System, the largest in the United States, is 
also tiered, starting with certified first responders, EMTs, 
paramedics, specialized rescue medics, and Haz-Tac paramedics and Haz-
Tac EMTs.
    The FDNY's Tiered Response System allows the department to adapt to 
extreme events by creating Task Forces to give the city and the region 
highly-trained teams that can rapidly respond to large-scale hazards 
and emergencies.
            organizational and communications infrastructure
    Of course, enhanced capabilities are only one component of our 
preparedness goals. The Department has also taken steps to improve our 
organizational and communications infrastructures as well. The 
Department has:
  <bullet> Developed a fully-staffed and trained Incident Management 
        Team (IMT), who played a key role in the Harlem and Second 
        Avenue explosions.
  <bullet> Launched an automated recall program that can target off-
        duty members to ensure resources are available to maintain 
        coverage throughout the city during any emergency.
  <bullet> Implemented a communications channel between on-scene 
        firefighters and the EMS command.
  <bullet> Implemented a second EMS city-wide channel to handle 
        concurrent Multiple Casualty Incidents.
  <bullet> Developed and launched a Suspicious Activity Reporting (SAR) 
        information and awareness campaign in firehouses and EMS 
        stations.
  <bullet> Implemented the Fire-ground Accountability Program (FGAP), 
        which consists of a number of inter-related applications to 
        enhance fire-ground safety and accountability.
  <bullet> We've made an investment in our workforce, providing senior 
        Fire and EMS Officers with customized leadership and strategic-
        management training. This includes our Fire Officers Management 
        Institute (FOMI)--partnering with GE and Columbia University--
        and our West Point Combatting Terrorism Leadership program. 
        These programs help the Department build the next generation of 
        leaders.
    The Department has successfully deployed a three-part field 
communication system that represents a critical step in improved fire-
ground communications. The system consists of 13 vehicle-based, cross-
band repeaters, which allow radio signals to be transmitted into dense 
building environments; 75 high-powered portable command post radios; 
and pre-programmed handie-talkie radios with several customized 
features that have improved on-scene tactical and command 
communications and firefighter safety.
    The FDNY has also built a state-of-the-art Emergency Operations 
Center at FDNY Headquarters to enhance information sharing, command-
and-control communications, and on-scene situational awareness 
capabilities. The Department is also completing a redundant back-up 
facility on Staten Island, which will serve as a fully-functional back-
up operations center where command-and-control personnel within the 
FDNY and first responders can plan, coordinate, and share relevant 
information with each other, and with other public safety agencies.
    An element of this system is the concept of a Networked Command: 
Linking on-scene situational awareness capabilities with command-and-
control-level operations at Emergency Operation Centers (EOC). Lastly, 
with the assistance of DHS and the Congressional Homeland Security 
Committee, FDNY has a secure room to receive and share Classified 
intelligence with DHS, the National Counterterrorism Center (NCTC), 
Fusion Centers and Law Enforcement about the current threat 
environment. Information sharing is critical to prevention, 
preparedness, and response.
                    homeland security grant funding
    The FDNY cannot reinforce enough how critically important Federal 
funding has been in supporting the initiatives outlined above. Since 9/
11, the FDNY has worked to build partnerships with key funders--notably 
the U.S. Department of Homeland Security (DHS) and the New York State 
Division of Homeland Security and Emergency Services (DHSES). To these 
agencies, we have communicated the FDNY's unique role in preparing for, 
responding to, and recovering from acts of terrorism, natural 
disasters, and other complex emergencies. To date, the FDNY has been 
awarded over $560 million in Federal funding through DHS.
    The FDNY has utilized DHS funds to rebuild after 9/11 and to 
prepare our first responders to manage the potential threats and 
hazards they face each day in the field. Grant funds support the 
equipment, planning, drills, technology, and training they need to 
prepare for and respond to these threats.
    An example is the Times Square Car Bomb. Through their training, 
first responders from Engine 54 and Ladder 4 immediately recognized the 
threat potential of the smoking vehicle. They took actions that day 
that reduced injuries, protected property, and saved lives.
    During Super Storm Sandy, the FDNY fought devastating structural 
fires, responded to over 5,000 medical emergencies and rescued more 
than 500 residents. The FDNY was able to draw upon DHS-funded training 
and equipment during Super Storm Sandy operations.
    A third example is the city's response to Ebola. In managing 
potential cases of EVD, the FDNY was able to draw upon a preparedness 
framework combining training, resources, and drills that specialized 
units developed preparing for Bio-Terrorism threats. This includes 
operating in chemical protective clothing, which as an added benefit, 
also protects against blood-borne pathogens. DHS funds helped build and 
train the HazTac and HazMat Units that played a key role in the 
response, and supported the purchase of specialized PPE and resources 
that provide emergency medical transport, treatment, and patient care.
    By investing in core areas--planning, incident management, 
leadership, communications, patient triage and treatment, Haz-Mat, 
marine firefighting, and search and technical rescue--we are better 
prepared today when disaster strikes. These capabilities served the 
Department and the city during the Times Square incident, during Super 
Storm Sandy, the building collapses in East Harlem and Second Avenue, 
the response to Ebola, and during the train derailment along the Metro 
North commuter rail line.
    These capabilities are a resource to the city, and when called 
upon, the entire New York region.
    Again, I want to thank you for the opportunity to speak on these 
key topics, and reiterate that fire department resources can adapt to a 
changing threat environment. We have structured our core competencies 
to respond to routine and extreme events--including acts of terrorism.

    Chairman McCaul. Thank you, Commissioner.
    The Chair recognizes Mr. Ielpi.

 STATEMENT OF LEE A. IELPI, PRESIDENT, SEPTEMBER 11TH FAMILIES 
                          ASSOCIATION

    Mr. Ielpi. Thank you, Mr. Chairman. Thank you, Committee. 
Thank you for inviting me here. It is a pleasure to be able to 
speak to you.
    Before I start, I would like to acknowledge that behind me 
there is a large number of family members who lost their loved 
ones here that are here to listen to this talk today.
    I would also like to thank the Port Authority Police 
Department behind me, who lost 37 fabulous guys and gals, 12 of 
which are still missing today; the New York City Police 
Department behind me, who lost 23, and 7 are still missing 
today; and, of course, the fire service, who lost 343, 
including my beautiful son Jonathan. Today, 127 New York City 
firefighters are still missing, along with 1,113 beautiful 
people who were murdered on 9/11 who are still missing this 
very minute.
    I have listened to Mayor Giuliani and you folks who have 
done yeoman's work to keep us safe in this country of ours. I 
have had the privilege of going around the country; I have 
spoken in many cities and many States. I have actually traveled 
out of country, speaking about 9/11 and the importance of 
understanding what happened to our country, our world, on 9/11.
    I spent 9 months here in recovery work. I worked with the 
best of the best that this country had to offer, not just the 
police, not just the fire department, emergency people, but our 
civilians from every one of your States, every one, that gave 
of themselves. They are now sick--sick. It is up to you, people 
of Congress, to speak up and support the Zadroga bill.
    I heard many of you talk about the importance of making 
this a National memorial. It is critical we make this a 
National memorial. Your support to do that is instrumental in 
making this just that: The most powerful memorial this country 
has, the worst attack on our country's soil in history. It was 
not an attack on New York City or the Pentagon or Flight 93. It 
was an attack on Portland, Maine. It was an attack on Houston, 
Texas, and North Dakota. It was an attack on our soil, our 
beliefs, our lifestyles, our freedoms by people that do not 
believe that.
    I listened to you talk about, and the commissioners, about 
how we protect ourselves, the police force, the military, and 
what we need to do. But I am very, very concerned that there is 
one thing that we have totally lacked in 14 years, and that is 
education. I can look at every one of you, every one of you, 
and we do not have a State in our country that I know of that 
has a curriculum to teach the history of what happened to us on 
9/11--not a State. I find that very troubling.
    We have teachers now that are 22, 23, 24, 25 years old that 
14 years ago were 9, 10, 11, 12 years old, 13 years old. They 
went to school, and there is no curriculum. They weren't taught 
about 
9/11. They don't know about 9/11, and now they are teachers.
    When I tell you they don't know--I speak in these schools. 
I speak in these States. The last place I spoke was Omaha, a 
very large class of graduating students from high school who 
did not know about 9/11. The principal called me up, or emailed 
me, 3 or 4 days later and said, Lee, I have students walking in 
the hallways of this school asking about 9/11. What happened on 
9/11? I have parents calling me up saying, ``You don't teach 9/
11? You don't educate our children about what happened to our 
country on 9/11?'' The answer is no.
    Just to drive that point home, a few days from now, on 
September 11, New York City schools do not have to have a 
moment of silence, nor do they have to talk about the 
significance of the day, unless the teacher wants to. So many 
of them do, but they are handcuffed. We teach to the test. You 
all know it. I spoke to teachers, again, throughout the 
country, and they have all said the same thing: We are failing 
our children.
    Continue your beautiful work. You have to continue to keep 
us safe. But, please, when you go back to your individual 
States, your constituents, it is up to you to say to Michigan, 
to Texas, to California, ``We don't have a curriculum in our 
State to teach what happened?''
    We can fight these terrorists all day long. We know they 
are coming back. We hear it from our commissioners; we hear it 
from you. But wouldn't it be powerful to be able to say that 
our young people can take a stand with this by understanding, 
by enlightenment, by understanding that this terrorism factor 
is here to stay? One of biggest things that we were taught from 
our forefathers is education, and it will solve problems.
    I will end--I spoke with an educator in London whose 
husband was murdered here. She went back to speak about, ``We 
must educate here in the U.K., in London.'' This was a few 
years back. This is an individual, just one person. She came 
back and said to me, ``Lee, I was told, no, we are not going to 
teach 9/11 in the United Kingdom. We do not want to aggravate 
the Muslim community.''
    I never heard such foolishness. We know there is more good 
Muslim people in this world, far more. But to be ignorant, that 
we are afraid to be politically incorrect is a downfall.
    So we do have a lot of missions in our lives, don't we? I 
would sincerely--I would beg you, when you go to your States, 
ask that question. You are going to be very surprised with the 
answers you are going to get. ``No, we don't teach it.''
    Thank you.
    Chairman McCaul. Thank you, sir, for your passion and your 
advocacy for the victims.
    The Chair recognizes Mr. Thomas.

 STATEMENT OF GREGORY A. THOMAS, NATIONAL PRESIDENT, NATIONAL 
        ORGANIZATION OF BLACK LAW ENFORCEMENT EXECUTIVES

    Mr. Thomas. Good morning, Chairman McCaul and the honorable 
Members of the House Committee on Homeland Security.
    My name is Gregory Thomas. I am the national president of 
the National Organization of Black Law Enforcement Executives, 
commonly referred to as NOBLE. I am pleased to bring to you 
this morning testimony on behalf of our executive board and our 
over 3,000 members who we represent internationally, who are 
primarily African-American chief executive officers of law 
enforcement agencies at the Federal, State, county, and 
municipal levels.
    Since 1976, we are proud to have served as a conscience of 
law enforcement by taking steps to ensure that there is equity 
in the administration of justice in all communities in the 
United States.
    In response to the seminal events that occurred in our 
country over the past year, NOBLE is proud to have played a 
central role in our Nation's efforts to improve the level of 
respect between police and the citizens they serve. Whether by 
serving as a key member of President Barack Obama's task force 
on 21st-Century policing or working closely with the Department 
of Justice on the ground in Ferguson, Missouri, we have been an 
important part of the discourse that has sought to bring a 
fresh look to the manner in which police professionally engage 
with the communities that they serve and in a manner that 
communities respectfully engage with the police that serve 
them.
    As steps are being taken by this honored committee to 
revisit importance lessons that have been learned in the post-
9/11 world, NOBLE is pleased to present this committee with a 
view from the field on the levels of cooperation between 
Federal, State, and local law enforcement agencies in their 
joint efforts to prevent, prepare for, respond to, mitigate, 
and recover from a terrorist attack.
    As we approach the 14th date of recognition, NOBLE would 
like to first offer its heartfelt condolences to the families 
of the over 3,000 people who lost their lives on September 11, 
2001. We would like to also thank the men and women of all the 
public safety and law enforcement agencies and everyday 
citizens who gallantly responded to the sites of the terrorist 
attacks both here in New York City, in Pennsylvania, and at the 
Pentagon in Virginia.
    The lessons learned from the September 11 attacks, a day 
which is commonly referred to as 9/11, are many. Arguably, the 
most important one is that there must be a unified 
intelligence-gathering effort always in place to ensure that we 
can properly identify plots and plans to attack our homeland 
and bring those who are behind these attacks to quick and 
determined justice.
    Recent statements from FBI Director Comey that the Islamic 
State group known as ISIS, or ISIL, poses a more challenging 
terror threat within the United States than al-Qaeda does 
highlights the need for us to keep our collective eyes open for 
those who will choose to act in a singular manner to create 
terror, the likes of which was recently evidenced in a thwarted 
attempt in France.
    This ever-present threat requires a top-level effort on the 
part of our Federal, State, and local law enforcement 
officials, an effort that will be greatly enhanced if these 
officials are given the structure to function properly.
    Fortunately, since 9/11, there has been significant 
progress made in regards to information-sharing between 
agencies. But in order to achieve a more robust environment 
that actively promotes horizontal and vertical information 
sharing, NOBLE believes that properly-resourced intelligence 
fusion centers can serve a dual purpose of combating terrorism 
and fighting crime, therefore providing an excellent return on 
taxpayer investments.
    In their 2006-issued guidelines on intelligence fusion 
centers, the Department of Justice defined a fusion center as a 
collaborative effort of two or more agencies that provides 
resources and information to the center with the goal of 
maximizing their ability to detect, prevent, investigate, and 
respond to criminal and terrorist activity.
    Many of our members across the country either work in or 
have worked with these centers and, as such, have commented 
favorably about their ability to provide a forum wherein 
Government and private-sector entities can unite to maximize 
available resources, build trusted networks and relationships, 
and thoroughly investigate and prevent criminal and terrorist 
activity.
    With some of our cities recently experiencing upticks in 
crime and with the general call for Government to do more with 
less, an expansion of these centers can serve to provide 
effective sources of timely intelligence related to violent 
gangs, drug trafficking, weapons smuggling, and other crimes 
that have a nexus to violence.
    While fusion centers have a viable place in the law 
enforcement and intelligence communities, NOBLE strongly 
recommends that their work continue to be subject to periodic 
independent review and be held to high standards, like those 
previously established by the Department of Justice, for 
example, so as to minimize the chances of civil liberty or 
privacy abuses.
    An example of a properly functioning and resourced fusion 
center can be found in Georgia, where in 2012 the Georgia 
Information Sharing and Analysis Center was named Fusion Center 
of the Year by the U.S. Department of Homeland Security.
    In addition to creating and properly funding fusion 
centers, NOBLE also urges Congress to continue to support, 
create, and fund programs that ensure that equipment that was 
purchased shortly after 9/11--like those that were purchased, 
for example, to properly respond to chemical, biological, 
radiological, nuclear, and explosive threats, also known as 
CBRNE attacks--remain current and usable by our Nation's first 
responders.
    Lastly, we also recommend that a strong emphasis be put on 
providing objective technical assistance and support for those 
agencies who want to apply for Homeland Security grants and 
assistance but, because of their size and financial capacity, 
have difficulty employing grant writers, for example, on a 
short- or long-term basis.
    On behalf of the National Organization of Black Law 
Enforcement Executives, I thank you again for the opportunity 
to provide our views on this important and timely topic. I will 
remain and look forward to responding to your questions.
    Thank you.
    [The prepared statement of Mr. Thomas follows:]
                Prepared Statement of Gregory A. Thomas
                           September 8, 2015
    Good morning Chairman McCaul, Ranking Member Thompson, and the 
honored Members of the House Committee on Homeland Security. My name is 
Gregory Thomas and I am the national president of the National 
Organization of Black Law Enforcement Executives, commonly referred to 
as NOBLE. I am pleased to bring you testimony this morning on behalf of 
our executive board and over 3,000 members who we represent 
internationally, who are primarily African-American chief executive 
officers of law enforcement agencies at the Federal, State, county, and 
municipal levels. Since 1976, we are proud to have served as the 
``conscience of law enforcement'' by taking steps to ensure that there 
is equity in the administration of justice to all communities in the 
United States.
    In response to the seminal events in policing that have occurred in 
our country over the past year, NOBLE is proud to have played a central 
role in our Nation's efforts to improve the level of respect between 
police and the citizens they serve. Whether by serving as a key member 
of President Barack Obama's Task Force on 21st Century Policing or 
working closely with the United States Department of Justice and its 
Office of Community Oriented Policing on the ground in Ferguson, 
Missouri, we have been an important part of the discourse that sought 
to bring a fresh look to the manner in which police professionally 
engage with the communities that they serve and in the manner that 
communities respectfully engage with the police that serve them.
    As steps are being taken by this honored committee to revisit 
important lessons that have been learned in the post-9/11 world, NOBLE 
is pleased to provide this committee with a ``view from the field'' on 
the levels of cooperation between Federal, State, and local law 
enforcement agencies in their joint efforts to prevent, prepare for, 
respond to, mitigate, and recover from a terrorist attack.
    As we approach the 14th date of recognition, NOBLE would like to 
first offer its heartfelt condolences to the families of the over 3,000 
people who lost their lives on September 11, 2001. We would like to 
also thank the men and women of all of the public safety and law 
enforcement agencies and everyday citizens who gallantly responded to 
the sites of the terrorist attacks both here in New York City, in 
Pennsylvania, and at the Pentagon in Virginia.
    The lessons learned from the terrorist attacks from September 11, 
2001, a day which is commonly referred to as 9/11, are many, but 
arguably the most important one is that there must be an unified 
intelligence-gathering effort always in place to ensure that we can 
properly identify plots and plans to attack our homeland and bring 
those who are behind these plans to quick and determined justice.
    Recent statements from FBI Director Comey that The Islamic State 
group also known as ISIS or ISIL, poses a more challenging terror 
threat within the United States than al-Qaeda does, highlights the need 
for us to keep our collective eyes open for those who will choose to 
act ``singularly'' to create terror, the likes of which was recently 
evidenced in the thwarted attempt in France. This ever-present threat 
requires a top-level effort on the part of our Federal, State, and 
local law enforcement officials, an effort that will be greatly 
enhanced if these officials are given the structure to function 
properly.
    Fortunately since 9/11, there has been significant progress made in 
regards to information sharing between agencies, but in order to 
achieve a robust environment that actively promotes horizontal and 
vertical information sharing, NOBLE believes that properly resourced 
intelligence fusion centers can serve a dual purpose of combatting 
terrorism and fighting crime, thereby providing an excellent return on 
taxpayer investments.
    In their 2006 issued guidelines on intelligence fusion centers, the 
Department of Justice defined a fusion center as ``a collaborative 
effort of two or more agencies that provide resources, [and] 
information to the center with the goal of maximizing their ability to 
detect, prevent, investigate and respond to criminal and terrorist 
activity''.
    Many of our members across the country either work in or have 
worked with these centers and as such have commented favorably about 
their ability to provide a forum wherein Governmental and private-
sector entities can unite to maximize available resources, build 
trusted networks and relationships and thoroughly investigate and 
prevent criminal and terrorist activity,
    With some of our cities recently experiencing upticks in crime, and 
with the general call for Government to accomplish more with less, an 
expansion of these centers can serve to provide effective sources of 
timely intelligence related to violent gangs, drug trafficking, weapons 
smuggling, and other crimes that can have a nexus to violence.
    While fusion centers have a viable place in the law enforcement and 
intelligence communities, NOBLE strongly recommends that their work 
continue to be subject to periodic independent review and be held to 
high standards, like those previously established by the Department of 
Justice for example, so as to minimize the chances of civil liberty or 
privacy abuses. An example of a properly functioning and resourced 
fusion center can be found in Georgia where in 2012, the Georgia 
Information Sharing and Analysis Center was named Fusion Center of the 
Year by the U.S. Department of Homeland Security.
    In addition to creating and properly funding fusion centers, NOBLE 
also urges Congress to continue to support, create, and fund grant 
programs to ensure that equipment that was purchased shortly after the 
9/11 attacks, like those that were purchased for example to properly 
respond to Chemical, Biological, Radiological, Nuclear, and Explosive 
threats, (also known as CBRNE attacks) remain current and usable by our 
Nation's first responders.
    Lastly, we also recommend that a strong emphasis be made on 
providing objective technical assistance and support for those agencies 
who want to apply for homeland security grants and assistance, but 
because of their size and financial capacity, have difficulty employing 
grant writers on a short- or long-term basis.
    On behalf of the National Organization of Black Law Enforcement 
Executives, I thank you again for the opportunity to provide our views 
on this important and timely topic. I will remain and look forward to 
responding to your questions.

    Chairman McCaul. I want to thank all the witnesses.
    The Chair recognizes himself for questions.
    Commissioner Bratton, you and I have talked a great deal 
about the evolving threat. You know, in the days of bin Laden, 
caves and couriers were used to communicate. It was a different 
type of threat, more of a command-and-control structure. But we 
see a threat today that--you talked about the Garland case, and 
you talked about the Fourth of July plot in New York, here.
    Many of these new threats--we worry about foreign fighters, 
but many of these new threats are all internet-driven, coming 
out of places out of Syria by what we call the cyber, sort-of, 
ISIS commanders, if you will, sending out directives to attack 
military, to kill police officers.
    You, sir, I think, have dealt with the majority of these 
threats. I think you mentioned in your testimony 20 plots have 
been thwarted just here in New York, and we have arrested over 
60 in the last year. This is a threat that I believe is growing 
exponentially. It is a very different type of threat, more 
difficult to manage because of the sheer volume. It is loud. 
There is a lot of chatter--200,000 tweets, ISIS tweets, per 
day.
    We did have a recent victory with the air strike against 
Junaid Hussain, al-Britani, who was sending many of these 
directives, sometimes with different Twitter handles, sometimes 
in dark space we can't even monitor even if we have a court 
order. We just, my understanding is, just recently now took out 
the No. 2 ISIS cyber recruiter. That is good news, but there 
will be many more to replace them.
    So I guess my question is, and it is very challenging: What 
is NYPD doing, working with Federal partners, to rise to this 
challenge to protect the American people?
    Let me just say, I commend you and your department for the 
great success you have had. But, again, the volume is so high, 
it worries me that we won't be able to stop all of this.
    Mr. Bratton. Your comment about the volume being so high 
reinforces the need for what New York has been very actively 
engaged in, and that is the collaborative effort with all of 
our various colleagues to ensure that we have seamless 
interaction with them.
    It has been a trial-and-error process going back to the 
events immediately after 9/11. As chief in Los Angeles, along 
with many of my colleagues among the major city chiefs, we 
literally had to almost use a battering ram in Washington to 
break down the doors at Homeland Security to allow us into the 
room to share information and to share what we had.
    Fortunately, those days are largely behind us, and, in New 
York City, I would like to think they are totally behind us, 
that, in this effort, there is too much to do to be bickering 
among ourselves or to be keeping information from each other.
    My predecessor, Ray Kelly, in the days after 9/11 and in 
the 12 years he ran the NYPD, developed an extraordinary 
operation that not only would work with our Federal colleagues, 
which was an absolute necessity, but also because of the 
critical issues facing New York, being probably the most 
significant terrorist target remaining in the world today and 
continuing, created a very large and robust counterterrorism 
capability.
    To that end, as the threats have changed, and particularly 
the last 18 months since my appointment as commissioner by 
Mayor de Blasio in January 2014, we have seen the threat of 
ISIS/ISIL expand exponentially with each passing month, using 
social media and also a strategy very different than al-Qaeda.
    Al-Qaeda was focused on the big event, on multiple big 
events, which had been their practice. ISIL has gone in a very 
different direction, a direction that is really a 21st-Century 
initiative on their part, the idea that social media allows 
them to not only attract fighters to Syria but also inspire 
fighters elsewhere in the world, who don't have to be trained 
in training camps or experience warfare to conduct attacks.
    You have referenced the 20 attacks that have been focused 
on New York City, 16 in 12 years thwarted by the NYPD, the FBI, 
and others. But the increasing pace, the idea that we have had 
4 in just the last now 19 months, the pace is increasing 
because of that social media.
    So we are going to continue to expand our response. We are 
going to continue to expand our proactivity. I referenced that 
just during my time as commissioner, with the additional 
resources Mayor de Blasio has been providing, 1,300 additional 
officers added to the department for the first time in 15 
years--for 15 years, the size of the department was decreasing. 
It is now once again increasing.
    A number of those officers are going into our Strategic 
Response Group, expanding from 400 to 800 officers. A large 
part of their mission will be to train for counterterrorism 
capabilities. Many of those officers are currently policing the 
U.S. Open, running all the security checkpoints that go into 
their facility.
    Additionally, Commissioner Miller is creating a 415-person 
unit that will be very specifically focused on protecting sites 
here in New York City, specially equipped and armed to take the 
interim measure that was created by Commissioner Kelly and now 
institutionalize it because the nature of the threat we are 
facing has now become so big.
    With reference to the issue of concern about cybersecurity, 
something whose full extent of potential harm we really don't 
fully understand--and I echo Mayor Giuliani's concerns that we 
are not doing enough there, but we are continually, with our 
resources in New York, trying to do more. Two-hundred-fifty 
detectives assigned to cybersecurity-related investigations a 
year or so ago, and recently the increase in assignment of 
personnel to the bureau as well as to District Attorney Vance's 
office.
    So we are fully engaged and we are constantly looking at 
the exponential expansion of the threats and the new direction 
those threats are going.
    Chairman McCaul. Well, I certainly commend you for your 
service. Thank you very much.
    The Chair recognizes the Ranking Member.
    Ms. Sanchez. Thank you, Mr. Chairman.
    It is nice to have all of you gentlemen before us.
    Commissioner Bratton, good to see you again. I used to work 
a little with you all up there in Los Angeles.
    I am pretty thrilled that there are so many Members here 
today, especially some of our newer Members. So, in the 
interest of time, I have just one question, and it will go to 
the commissioner.
    We have been investing a lot of resources. The resources 
that we have at the Federal level, of course, we have 
diligently worked to help New York City.
    My question is: You are so far ahead in so many ways on 
this whole counterterrorism and how to deal with your 
communities and policing. How do you share that with some of 
the other cities, maybe some of the smaller cities that don't 
get those types of resources?
    Mr. Bratton. That is a great question. We consciously seek 
to take what we learn and share it. There is the major city 
chiefs organization, NOBLE that is here at the table, where 
continually throughout the year but then at our various annual 
conferences the issue of terrorism is now almost always a major 
topic of discussion at those roundtables.
    Below the major city chiefs in most of the major cities of 
the country is the Intelligence Commanders Group, an entity 
formed right after 9/11. Los Angeles, when I was police chief 
there, led the way. Chief Michael Downing has become one of the 
more renowned experts on this issue. They meet continually to 
share information, not only in actual face-to-face meetings but 
through the various technologies available to us now. Then, in 
collaboration with IACP, National Sheriffs' Association, there 
is a lot more effort to keep them aware of changing tactics, 
techniques.
    At the Homeland Security level, Homeland Security has 
evolved significantly under the leadership of the various 
Secretaries but particularly under Secretary Johnson. He has 
really made an effort to ensure that the various fusion 
centers, the various initiatives that have been undertaken, 
that we are true partners at the table, that there should be 
nobody below the salt, if you will, at our table, that all of 
us should be in a position to share.
    That was not the case initially in 2002, 2003, 2004, when 
repeatedly we were banging on the door to be allowed in to even 
sit at the table, let alone be above the salt. Fortunately, a 
lot has changed, and we are continuing to improve our 
collaborative efforts.
    Ms. Sanchez. Thank you, Commissioner.
    I yield back, Mr. Chairman.
    Mr. King [presiding]. Thank you, Loretta.
    First of all, I want to thank all the witnesses for being 
here today. Time is short, so I would like to focus on the 
whole issue of the Zadroga bill and 9/11 health care.
    Before that, though, Commissioner Nigro, let me just 
commend Chief Joe Pfeifer for the great job that he has done. 
During the time that I was Chairman of the committee, Joe was 
extremely helpful to us, so I want to thank him for that and 
also for the tremendous heroism he showed on 9/11.
    Lee Ielpi drove home the issue of the health care and the 
fact that people are dying to this day.
    Dan, you and I over at Chief Ganci's funeral, I remember 
you spoke about 343 being killed. Well, since then, another 
111, I think, have died directly from 9/11 health-related 
illnesses.
    So I would like to ask Commissioner Nigro and Commissioner 
Bratton if they could just focus on the importance of extending 
the Zadroga bill.
    Also, I would say parenthetically, I think every 
Presidential candidate should be obligated to take a stand on 
this issue, because this goes right to the heart of what 
America is all about.
    So, Commissioner Nigro, since you suffered the most.
    Mr. Nigro. Well, certainly, the fire department's support 
for the Zadroga bill couldn't be stronger. As you stated, we 
might have thought on 9/11 that our losses ended with 343. We 
have added more than 100. This afternoon, we will add 21 names. 
The families of those 21 members will be at our headquarters as 
those names get added to our memorial wall.
    I am sad to say that the memorial wall we created will soon 
be too small, because those losses continue to mount. We have 
15,000 people registered, retired and active members, in the 
World Trade Center health program. We have more than 1,000 
cases of cancer among those people. We have many sick members, 
retired and active, to take care of.
    So the importance of this bill for us should go without 
saying but I will repeat it. I could not support it in a more 
strong fashion.
    Mr. King. Commissioner Bratton.
    Mr. Bratton. My comments would echo those of the 
commissioner, that, similarly, just during my time as 
commissioner, I have participated in a number of wakes and 
funerals for survivors of 
9/11 but who did not ultimately survive the efforts that they 
put in at the pile and the illnesses that they contracted 
there.
    This is a National obligation, a National debt, and it must 
be fulfilled.
    Mr. King. The bill expires this year, and the funding will 
run out by next year.
    We have 35 seconds. Lee Ielpi, what can you tell us on 
Zadroga?
    Mr. Ielpi. I spent 9 months in recovery work, and I worked 
with the best of the best that this country had to offer. It is 
our obligation to support them.
    The fire service, we have been very fortunate, but the 
underlying problem is the people that don't have this. They are 
not firefighters, PD. They are people that came here from all 
over the country. If we don't support them, what kind of a 
message are we sending out to the rest of this country of ours? 
They need help.
    The major illnesses are cancers, respiratory, sinus, 
psychological problems. Those are the major ones; there are a 
lot more besides that. The psychological problems don't show 
themselves until it is manifested to the point where you 
realize that the person is having a severe problem--suicides, 
drug, marriage abuse problems.
    We focus on them. We can find them because we keep track of 
them within the uniformed services. It is the people that don't 
have that support. We must endorse the Zadroga bill. It is 
critical for our country.
    Mr. King. Thank you, Lee, and thank you for your service.
    Again, I would urge every Presidential candidate to come 
out on this issue.
    With that, the gentlelady from Texas, Ms. Jackson Lee.
    Ms. Jackson Lee. Mr. Chairman, thank you so very much.
    I am interested in making a little history here this 
morning, or this afternoon, and maybe draw upon this great 
committee to sign a letter to encourage the immediate placing 
of this legislation on the floor of the House to be voted on 
and to get it to the President's desk.
    I want to thank Congressman King, Congresswoman Maloney, 
and Congressman Nadler, who have been leading on this, and all 
of us have joined them.
    So I believe the message today, besides this being a very 
key hearing as we lead up to 9/11, is that we can leave no one 
behind, and certainly those who now live or those who have 
passed, tragically, since 9/11 because of the tragic impact of 
that devastating day.
    Mr. Ielpi, let me say to you that the families will never 
be forgotten. I know what an emotional drain and experience 
that you have had, and thank you for your courage of going 
around to educate people. You have certainly given me a moment 
to raise the question: Why don't we have across America a 
moment of silence on that day or that we work with our students 
and our schools across America? So thank you for that. But I 
mourn the loss. It is a painful experience, and it is one that 
we feel deeply. I thank you so much for your presence here.
    Let me quickly ask my questions to Commissioner Nigro, Mr. 
Thomas, and Mr. Ielpi. Let me see if I can get them all out, 
and then you all can answer them.
    Commissioner, we committed ourselves on 9/11 to not let 
fear or terrorism cause us to terrorize ourselves. I would hope 
that you and Mr. Thomas could share in this, and that is, how 
the civilian police have to balance, to interact to do their 
duties, both in terms of law enforcement and fighting terror 
and dealing with a democratic society.
    Mr. Nigro, if you would answer--as I came in, I could not 
avoid the powerful image of Ladder 3. I paused for a moment to 
read that story, which is the potent thing about what history 
is about, to know that that captain, I believe, had to use a 
landline, the one phone that was there, dealing with giving 
signals or messages down. God bless him. May he rest in peace. 
But the question of interoperability, if you would answer that 
question.
    Last, Mr. Thomas, I want to thank you for bold leadership 
and ask you about the Law Enforcement Trust and Integrity Act 
that gives sort-of a roadmap for officers to continue to 
improve themselves as they serve us, but also the same question 
you might want to answer of interacting in a world where you 
are dealing with terrorism but also dealing with a democratic 
society.
    I thank you all very much.
    Commissioner Bratton. I asked you about the terrorism, but 
I will go to him first.
    Mr. Nigro. Certainly.
    Ms. Jackson Lee. Okay.
    Mr. Nigro. It is certainly a sad story about communications 
on 9/11 and the failures that day. I think the Department in 
the 14 years since has recognized those failures and identified 
each one and corrected the problems.
    So, today, in today's world, we communicate with the other 
agencies, with the police department quite readily. We have the 
capacity to communicate with one another now from all floors of 
these buildings. Certainly, in the new One World Trade Center 
and the buildings around them, we have hardened communications 
that will sustain themselves.
    But all of those sad facts of 9/11 and many other areas 
where we saw that we could improve, we have. Much of that is 
with the help of the Federal Government and funding that we 
have received.
    Chairman McCaul [presiding]. If I could just interject, we 
have a hard stop at 1 o'clock to catch our train. So, in the 
interest of time so all of the Members can fully participate, I 
would like to move on and ask the Members to try to be as brief 
as possible.
    Ms. Jackson Lee. Mr. Chairman, if I could ask the witnesses 
to maybe provide the answers in writing and thank them again 
for----
    Chairman McCaul. I thank that would be a good idea.
    Ms. Jackson Lee [continuing]. Their very astute presence 
here today. Thank you.
    I yield back.
    Chairman McCaul. I appreciate that. Thank you.
    The Chair recognizes Mrs. Miller.
    Mrs. Miller. Thank you, Mr. Chairman.
    In the interest of time, I am not sure I have a question 
but maybe a comment, particularly for Mr. Ielpi, who talked 
very eloquently about our lack of educational curriculum in all 
of our schools about what happened on 9/11 and why it happened 
and what this symbolizes here and the threats that our world 
and this new generation is facing, as well.
    So, just listening to you, I emailed one of my staff here, 
saying, listen, I need to draft a letter to the Michigan State 
department board of education and ask them what kind of 
curriculum they actually have about 9/11. I intend to do that. 
It might be calling you later to ask you some thoughts on that.
    But I think it is very, very important. Here we are 14 
years later, and so many of these kids weren't born or were so 
young they don't really understand it. I think what is 
absolutely critical is the educational component to help them 
all understand it and how important it--what it really 
symbolizes and, again, how we keep ourselves safe and secure 
going forward. It is up to the next generation. It always is; 
that is just the way of the world.
    Mr. Ielpi. We have been saying this for years, that one of 
the ways to fight terrorism is to go at it full force, and one 
of those ways is through education, through enlightenment. If 
we continue down this road of political correctness, where we 
are afraid to say things, that is foolish, and the terrorists 
are laughing at us every time this subject comes up.
    So thank you. I hope you can prove me wrong, but I know 
Michigan----
    Mrs. Miller. Yeah, I really am not aware. I hadn't really 
thought about it, to tell you the truth. So----
    Mr. Ielpi. I think we all----
    Mrs. Miller [continuing]. I think that is a good point.
    Mr. Ielpi [continuing]. Fall into that same subject, where 
we assume that our children are getting the correct education 
when they go to school, and then we find out that we are not. 
We spoke about this last night in our State.
    Mrs. Miller. Thank you very much.
    I yield back.
    Chairman McCaul. The Chair recognizes Mr. Vela.
    Mr. Vela. Mr. Ielpi, thank you for bringing that to our 
attention. What I think we can do for you, there are five of us 
from the Texas delegation here, and we can get together, along 
with the other members of the Texas delegation, and write a 
letter to our Governor, talk to him and see what we can do 
about that. I think it is very important.
    On the issue of the National museum, I think you and 
everybody else in New York can count on all of us here on the 
committee to support that effort, as well.
    I do have questions with respect to the streamlining of 
your efforts, Commissioner, across the country. But, in the 
interest of time, I am going to yield my time so that our 
colleagues from the State of New York will have time to ask 
questions.
    Chairman McCaul. I thank the gentleman.
    The Chair recognizes Mr. Katko.
    Mr. Katko. Thank you, Mr. Chairman.
    Thank you all for being here today.
    I have had the pleasure of being in a secure briefing with 
Commissioner Bratton, and, upon speaking with him again last 
night and with Mr. Nigro, it is clear to me that New York is in 
excellent hands.
    You are doing a great job fighting the war on terrorism and 
thinking outside the box, being innovative, and doing a 
wonderful job. So I simply want to commend you for that.
    Mr. Ielpi, I had some wonderful conversations with you last 
night. I still can't imagine what it is like to lose a loved 
one in the manner in which you did. Then for you to have to 
carry your son's body out of the wreckage, it has to be--I know 
it is a life-altering thing for you.
    For the other families that are here today, my heart bleeds 
for you, our hearts bleed for you.
    You know, going through this memorial yesterday, I saw that 
adjacent to one wall here is where some of the remains are that 
have been unidentified, and behind in the coroner's office. I 
hope we can continue to support that effort.
    But, with respect to education, I was horrified to learn of 
the lack of education and the lack of priority given to this. 
We learned as kids in school about World War I, World War II, 
the Vietnam war. This is a war on terror, and it is the 
greatest act of the war on terror ever perpetrated against us. 
It is our solemn duty to make sure that we never forget it, 
because, as we all know, we learn from history.
    So, Mr. Ielpi, quickly, I would like to say, if you could 
wave a wand, what would you like to have happen to make sure 
that this education effort continues? What will be the best way 
to do it?
    Mr. Ielpi. I have 9 grandchildren. My buddy, my son, my 
oldest son--I have four children--gave his life that day. My 
wish would be that my grandchildren understand the sacrifices 
made not just by the people that were murdered on 9/11, the 
Pentagon, Shanksville, here, but the sacrifices that were made 
by our men and women in uniform since 9/11. That is why we are 
here; that is why this commission has been established.
    That would be my wish, that I would leave this beautiful 
world of ours knowing that our children, our grandchildren are 
going to have that knowledge on how to make tomorrow that 
better day. It is our obligation to make tomorrow a better day, 
and that would be my wish.
    Chairman McCaul. Mr. Hurd is recognized.
    Mr. Hurd. This is why we do field hearings, right? Learning 
about these issues.
    Mr. Ielpi, I appreciate, you know, making us aware of 
these. Any information you have on people that are close to 
maybe getting it done or suggestions so that we are not 
starting from ground zero would be helpful for the entire 
committee. If you could submit that to us, that would be 
fantastic.
    On the night at 2 o'clock a.m., the night after the 
airplane went into the Twin Towers, I was called by my boss and 
said, report to the basement of the old headquarters building 
in the CIA office. I became one of the first employees in the 
unit that ended up prosecuting the war in Afghanistan and 
bringing to justice some of those that did these dastardly 
deeds on our land.
    It would be great if this is the last facility of its kind 
in the United States of America. If I were to engage my 
pessimistic side, I would say this is not going to be the last.
    But when I think about the heroism that was displayed on 
that day, when I think about the number of men and women in the 
intelligence services and our diplomatic corps and our military 
and the men and women that you all represent on local law 
enforcement that are still operating as if it is September 12, 
2001, it warms my heart and makes me think maybe this is going 
to be the last facility of its kind in the United States of 
America.
    It is important. I remember what it was like in August in 
the CIA building, and there was concern, chatter: Something is 
going to happen, we don't know what it is. We weren't able to 
put the dots together. Knowing and then seeing what happened, 
those intelligence failures--you know, one of the reasons I 
ended up being where I am today was to see how I could help the 
intelligence community.
    We alluded to it earlier, this idea of, instead of ``need 
to know,'' moving to ``need to share.'' It is hard to change 
cultures. That is what the intelligence community is based off 
of. Things have changed in a huge way, but I am interested to 
hear from you all, from the commissioners, what specific things 
can we be doing to get more intelligence in your hands to do 
your jobs?
    Mr. Bratton. I think we are doing it. I think, as I have 
referenced, as Mayor Giuliani before me referenced, that the 
collaborative efforts that have helped to inform us, to the 
extent of here in New York thwarting those 20 attempted 
attacks, around the country the increasing pace of attacks that 
are being constantly disrupted, it really is all about 
collaboration. It is about the idea of openness and 
transparency between the respective entities that are engaged 
in trying to keep our communities safe.
    The good news is that we are evolving at a rapid pace in 
that regard and continuing to do so.
    Mr. Nigro. I think for the fire department--and I think 
Congressman King mentioned before Chief Joe Pfeifer, who runs 
our Center for Terrorism and Disaster Preparedness, works very 
closely with local and National law enforcement, keeping our 
members up-to-date, keeping situational awareness each and 
every day as if it is September 12.
    The department has not forgotten. The department stays 
alert and stays ready. We appreciate the support that makes 
this possible, because these things take support. We have been 
getting support from the Federal Government. We need it to be 
sustained.
    Mr. Hurd. I yield back.
    Mr. Thomas. If I might, Mr. Chair----
    Chairman McCaul. Yes. Sure.
    Mr. Thomas [continuing]. Just add one another thing too?
    I mentioned again in my statement about the fusion centers. 
Their structure is robust enough to keep that flow of 
information going properly.
    I wanted to add one other thing, one other sector that was 
very effective on that day, on 9/11. I was the director of 
security for New York City schools on that day. We had 8 
schools near the Twin Towers here, 2 high schools about 20 
yards south of the South Tower.
    The collaboration on that day led to us rescuing 9,000 
students and staff from those schools and nobody missing, 
killed, or injured, because the fire department and the police 
departments worked together beforehand, collaboration with fire 
drills and preparedness plans. On the day of the event, the 
fire department's response and the NYPD's response was 
important for us to have those children rescued.
    So I would also say that it is important that the plans 
also include those areas of the government, mostly schools, who 
are designated as soft targets but are right in the realm of 
what can go on depending on where they are located in your 
respective States.
    Chairman McCaul. Mr. Ratcliffe.
    Mr. Ratcliffe. Commissioner Bratton, as the Chairman of the 
Subcommittee on Cybersecurity, Infrastructure Protection, and 
Security Technologies, I wanted to ask you a little bit about 
ISIS. We have talked today about how they have effectively used 
social media in a way that al-Qaeda never did to essentially 
create terror franchises, to create a force multiplier of the 
disenfranchised in our society.
    One of the problems with respect to that has been their 
effective use in using encrypted communications through social 
media. That has been a growing concern for law enforcement 
generally. FBI Director Comey has talked about it.
    I wanted to give you an opportunity to talk about that 
publicly and comment in any way on how your police force is 
able to or is trying to mitigate the associated risks with 
that.
    Mr. Bratton. That is an excellent question. In this 
morning's New York Times, front-page story on just this issue, 
about the many aspects of it that are going to have to be 
addressed as we go forward.
    I have met with the FBI director on a number of occasions 
on this issue, as recently as last week with District Attorney 
Cy Vance, the concerns about the encryption capabilities being 
built into so many of the devices that various companies, 
whether it is Google, Apple, and others, are marketing to their 
customers and how that is impacting, potentially, on our 
ability to investigate not only crime but terrorism.
    But it is a Pandora's box of many issues, we have found as 
we have opened it, but we need to get into that box and sort it 
out, because it does impact greatly on our ability to 
investigate traditional crime, whether it is kidnappings and 
other forms of crime, or the growing, ever-growing area of 
terrorism, and impacts on our ability to track these people 
down once we, in fact, spot them on social media.
    Mr. Ratcliffe. Thank you, Commissioner.
    I will yield back the balance of my time.
    Chairman McCaul. The Chair recognizes Mr. Donovan.
    Mr. Donovan. Thank you, Mr. Chairman.
    Commissioner Bratton and Commissioner Nigro, I would just 
like to ask the same question to both of you.
    When I was the district attorney of Staten Island for 12 
years, there were certain things that I didn't want the public 
to know about how I spent my money. I didn't want people 
knowing what hotels we put witnesses in. The auditors had ways 
that we could account for the moneys that we spent but without 
revealing, for safety reasons, how we spent that money.
    The Department of Homeland Security funding that you 
receive, are there ordered requirements, restrictions, things 
that hamper your ability to utilize that money in the best way 
that you could use it to protect the people of New York City?
    Mr. Bratton. One of the issues that we have discussed over 
a number of years with Homeland Security--and, in fact, you in 
Congress have some control over this--is the issue of when we 
spend the money and the time frame within which we spend it--
that, by the time we get the authorization suspended, by the 
time we get the appropriate requests in, oftentimes there is a 
need to go beyond the requirements of the law as to within what 
time frame we have to spend it. You want to close the books.
    It is an issue we have raised repeatedly. Hopefully, as you 
go forward, your efforts on this committee, to take a closer 
look at that still-unresolved issue.
    We get, fortunately, a lot of money into New York City, and 
I certainly thank the Congressional delegation that leads those 
efforts. But it is the requirements in terms of how quickly we 
have to spend it. It takes quite a while to get the contracts 
up and running, and we spend it over a period of time.
    So that is an issue of concern as it relates to funding 
mechanisms that we still experience.
    Mr. Nigro. I think Bill took the words right out of my 
mouth, because we are just recently experiencing the same 
issues. It is one thing, we can sometimes purchase things if 
they are items to purchase, but much of it is training. This 
training takes time and scheduled, and to try to fit it into a 
certain very specific time frame becomes very difficult. So we 
constantly run into that issue of spending the money within the 
assigned time, especially in the areas of training.
    Mr. Ratcliffe. I thank you both for being here today and 
for protecting my family.
    I yield my time, Mr. Chairman.
    Chairman McCaul. I thank the Members for being so efficient 
on time that we have a little extra time. I want to recognize 
Ms. Jackson Lee for her one follow-up question.
    Ms. Jackson Lee. Mr. Chairman, thank you. It was Mr. Thomas 
who did not get a chance to answer the question that I had 
given him.
    As I do that, let me acknowledge one of my constituents, 
Deputy Darren Goforth, who lost his life tragically over the 
last week. We buried him last week. Certainly, it speaks to the 
difficulty of serving in law enforcement.
    What I asked you, Mr. Thomas, was about the Law Enforcement 
Integrity Act, but to talk about that and the dual role that 
law enforcement have, of this issue of terrorism but also 
working in a civilian population, how they balance those 
responsibilities.
    Thank you so much for all of your presence here.
    Mr. Thomas. Yes. Thank you.
    Ms. Jackson Lee. Thank you, Mr. Chairman.
    Mr. Thomas. So the Law Enforcement Trust and Integrity Act 
you are referring to, which NOBLE supports and endorses wholly, 
is one that is focusing on trying to improve the standards for 
law enforcement, that there will be some structure, that they 
will be focusing on how to conduct themselves in a very 
structured way.
    Now, again, some police departments do that every day on a 
regular basis. Some have challenges doing that based on their 
numbers of personnel and budgets. But the act itself defines 
some standards that are easy to attain, standards that are 
similar to the ones that CALEA puts forth now, the Commission 
on Accreditation for Law Enforcement Agencies.
    But, also, the act talks about youth reform and 
incarceration and talks about the need to look at how we 
sentence our youth. There are some youth who have, I guess, 
some events that are deviant that are not their doing per se 
but based on their mental state. The act, in itself, looks at 
that issue, particularly as it relates to those who are 
incarcerated for longer periods of time, as it relates to 
solitary confinement and the like.
    Now, as it relates to the events that we are going through 
now over the past year in law enforcement that you referred to 
earlier, there is a challenge now for the law enforcement 
community generally to focus on the regular day-to-day issues 
of crime-fighting but also now adding on top of that terrorism 
and interweaving those together.
    We know that the challenges that are out there now in the 
community are really few. There is a lot that is in media right 
now. Law enforcement is doing their job properly every day. It 
is more that we focus on the issues that they are doing right 
rather than wrong.
    So any effort we have now to empower law enforcement 
better, with the ability to do better community policing and to 
have better training and have the appropriate staff--that is 
another issue, as well, because, since 9/11, staffing has waned 
in some police departments. Here in New York City, for example, 
the number has gone down. So it is important that we not lose 
the focus on making sure that we have the right amount of 
people staffed properly and properly trained.
    Ms. Jackson Lee. Mr. Chairman, thank you so very much.
    I also want to thank Mayor de Blasio for his service and 
all of you who are here.
    Thank you, Mr. Chairman. I yield back.
    Chairman McCaul. The Chair recognizes Mr. King for a brief 
statement.
    Mr. King. I just--what Lee Ielpi did not say is that he 
suffered cancer from 9/11 and also still has two nodules on his 
lungs.
    So hang in there, Lee.
    Mr. Ielpi. Thank you.
    For those of you--I think the question was brought up 
before about curriculum. Our organization, which is the 9/11 
Tribute Center--I am a board member of this organization, which 
I am so proud of what has been accomplished here. Our little 
organization, we give out a teacher award every year to 
teachers that go above and beyond, that talk about 9/11, teach 
9/11.
    We gave an award out 3 years ago to a teacher that came 
from Milford, Connecticut, and she received the award. When she 
came, she came with her principal and some of the other staff 
members from the school. When they went back to Milford, 
Connecticut, they wrote us and said, would you come and help 
us? We are thinking of putting together a curriculum for the 
school district of Milford, Connecticut.
    Every State runs their educational system differently. In 
New York, it is regents folks. Milford, Connecticut, we went, 
we spoke. Last year, Milford, Connecticut, to the best of our 
knowledge, is the only school district in our country that has 
a written curriculum to teach the history of 9/11. They are not 
afraid to talk about who did this, why, and how do we make it 
better.
    So, if you are interested, we are always in contact with 
our teachers. We will be able to supply their curriculum. I am 
not going to say it is the best in the world, but it is a 
start. So, if you are interested for your own States, Milford 
would be more than happy to assist you in any way they can.
    Chairman McCaul. Let me thank the witnesses.
    Let me close with this. I recently cosponsored the Zadroga 
Act, the 9/11 health care bill--I know Mr. King is one of the 
chief sponsors--and also the National 9/11 Memorial at the 
World Trade Center Act. It is our obligation, I think, and our 
duty, it is the responsibility of the Federal Government to do 
so.
    Let me close with saying this. As with Pearl Harbor, the 
Kennedy assassination, I think everybody remembers where they 
were and what they were doing on September 11. I, for one, was 
with my 5-year-old, now 19-year-old, daughter watching the 
second plane fly into the second tower, realizing at that time 
as a Federal prosecutor that this was not some random act but 
rather a very cold, calculated act of terrorism.
    I think it is incumbent, Mr. Ielpi, as you pointed out, 
that we never forget that day and that we teach the next 
generation of Americans the importance of what happened that 
day so that it never happens again.
    So, with that, let me again thank the witnesses. It has 
been a very valuable hearing.
    I want to thank again the museum for allowing us to conduct 
this hearing in a very historic setting. It has been a 
tremendous experience, and I want to thank everybody involved, 
including all the staff, who worked so hard to make this 
possible.
    With that, this hearing now stands adjourned.
    [Whereupon, at 12:30 p.m., the committee was adjourned.]

                                 [all]
</pre></body></html>
